Appendix A-1
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
__________
Argued October 22, 2019 Decided December 27, 2019
No. 18-5353
Massachusetts Lobstermen’s Association, et al.,
Appellants
v.
Wilbur Ross, in his official capacity as Secretary of
Department of Commerce, et al.,
Appellees
__________
Appeal from the United States District Court
for the District of Columbia
(No. 1:17-cv-00406)
__________
Jonathan Wood argued the cause for appellants.
With him on the briefs were Damien M. Schiff and
Joshua P. Thompson.
Avi Kupfer, Attorney, U.S. Department of
Justice, argued the cause for federal appellees.
With him on the brief were Jeffrey Bossert Clark,
Assistant Attorney General, Eric Grant, Deputy
Assistant Attorney General, and Andrew C. Mergen
and Robert J Lundman, Attorneys.

Appendix A-2
Katherine Desormeau argued the cause for
defendants-intervenors-appellees. With her on the
brief were Ian Fein, Peter Shelley, and Roger
Fleming.
David J. Berger and Justin A. Cohen were on
the brief for amici curiae Academic Scientists in
support of appellees.
Paul M. Thompson was on the brief for amici
curiae Alison Rieser, et al. supporting defendant’s
brief affirming the District Court.
Nicholas A. DiMascio, Samantha R. Caravello,
and Lori Potter were on the brief for amicus curiae
National Audubon Society in support of appellees
and supporting affirmance.
Andrew J Pincus was on the brief for amici
curiae Senator Richard Blumenthal and Senator
Brian Schatz in support of appellees and for
affirmance of the District Court’s judgment.
Douglas W Baruch was on the brief for amici
curiae Ocean and Coastal Law Professors in
support of defendants-appellees and defendantsintervenors-appellees and affirmation.
Before: TATEL and MILLETT, Circuit Judges, and
GINSBURG, Senior Circuit Judge.

Appendix A-3
Opinion for the Court filed by Circuit Judge
TATEL.
TATEL, Circuit Judge: Acting pursuant to the
Antiquities Act, 54 U.S.C. §§ 320301 et seq.,
President Obama established the Northeast
Canyons and Seamounts Marine National
Monument to protect “distinct geological features”
and “unique ecological resources” in the northern
Atlantic Ocean. Proclamation No. 9496, 3 C.F.R.
262, 262 (2017) (“Monument Proclamation”).
Several commercial-fishing associations challenged
the creation of the Monument, arguing that the
President exceeded his statutory authority. The
district court disagreed and dismissed the
complaint. With a minor alteration, we affirm.
I.
“[A] statute of historical importance for natural
resource conservation and for archeological and
historic preservation in the United States,” the
Antiquities Act grew out of a movement to protect
the nation’s unique historical, archeological, and
scientific heritage. Bruce Babbitt, Introduction, in
The Story of the Antiquities Act (Ronald F. Lee,
2001). “[B]eg[inning] in 1879,” “[a] whole
generation of dedicated . . . scholars, citizens, and
members of Congress . . . through [their]
explorations, publications, exhibits, and other
activities,” id. (internal quotation marks omitted),
pushed for the enactment of “national preservation
legislation,” culminating in 1906 with the passage of
the Antiquities Act, Ronald F. Lee, The Antiquities
Act, 1900-06, in The Story of the Antiquities Act

Appendix A-4
(Ronald F. Lee, 2001). To this day, the Act remains
“a major part of the legal foundation for
archeological, historic, and natural conservation
and preservation in the United States.” Babbitt,
supra.
The Act provides that “[t]he President may, in
the President’s discretion, declare by public
proclamation historic landmarks, historic and
prehistoric structures, and other objects of historic
or scientific interest that are situated on land owned
or controlled by the Federal Government to be
national monuments.” 54 U.S.C. § 320301(a). The
Act also authorizes the “President [to] reserve
parcels of land as a part of the national
monuments,” so long as reservations are “confined
to the smallest area compatible with the proper
care and management of the objects to be
protected.” Id. § 320301(b).
Over the last century, Presidents have created a
total of 158 national monuments, protecting a wide
range of the nation’s historic and scientific
resources. National Park Service, List of National
Monuments, https://www.nps.gov/archeology/sites/
antiquities/monumentslist.htm.
For
example,
President Theodore Roosevelt established the
Grand Canyon National Monument, reserving
some 800,000 acres of land in the Arizona desert to
protect “the greatest eroded canyon within the
United States.” Proclamation No. 794, 35 Stat.
2175, 2175 (Jan. 11, 1908). More recently, President
Clinton established the Hanford Reach National
Monument in Washington to protect “the largest
remnant of the shrub-steppe ecosystem that once

Appendix A-5
blanketed
the
Columbia
River
Basin.”
Proclamation No. 7319, 3 C.F.R. 102, 102 (2001).
And President George W. Bush created the
Northwestern Hawaiian Islands Marine National
Monument—later renamed the Papahānaumokuākea Marine National Monument, Proclamation No.
8112, 3 C.F.R. 16, 16 (2008)—reserving nearly
140,000 square miles of ocean off the Hawaiian
coast to protect the area’s “dynamic reef ecosystem,
. . . home to many species of coral, fish, birds,
marine mammals, and other flora and fauna.”
Proclamation No. 8031, 3 C.F.R. 67, 67 (2007).
Continuing in that tradition, President Obama
reserved roughly 5,000 square miles of ocean to
create the Northeast Canyons and Seamounts
Marine National Monument (“the Monument”).
Monument Proclamation, 3 C.F.R. at 262. Lying
some 130 miles southeast of Cape Cod, the
Monument consists of two non-contiguous units.
Id.; see infra Figure 1. The first covers three
underwater canyons that “start at the edge of the
geological continental shelf and drop from 200
meters to thousands of meters deep.” Monument
Proclamation, 3 C.F.R. at 262. The second covers
four
extinct
undersea
volcanoes—called
seamounts—that rise “thousands of meters from
the ocean floor.” Id. “Because of the steep slopes of
the canyons and seamounts, oceanographic
currents that encounter them create . . . upwelling”
that “lift[s] nutrients . . . from the deep to sunlit
surface waters,” fueling “an eruption of [plankton]
that form[s] the base of the food chain.” Id. at 26263. “Together the geology, currents, and
productivity create diverse and vibrant ecosystems”

Appendix A-6
home to assorted marine flora and fauna, including
rare species of deep-sea corals. Id. at 263.
Accordingly, the Monument protects both “the
canyons and seamounts themselves” as well as “the
natural resources and ecosystems in and around
them.” Id. at 262.
Significantly for the issue before us, the
Monument lies entirely in the U.S. Exclusive
Economic Zone (“EEZ”), the belt of ocean between 12
and 200 nautical miles off the nation’s coasts over
which the United States exercises dominion under
international law. See Restatement (Third) of
Foreign Relations Law § 511(d), cmt. b
(“Restatement”) (explaining that costal states
exercise sovereign rights over their exclusive
economic zones). President Reagan created the U.S.
EEZ in 1983 by issuing a proclamation that claimed
for the United States
sovereign rights for the purpose of
exploring, exploiting, conserving and
managing natural resources, both living
and non-living, of the seabed and subsoil
and the superjacent waters and with regard
to other activities for the economic
exploitation and exploration of the zone,
such as the production of energy from the
water, currents and winds; and [ ]
jurisdiction
with
regard
to
the
establishment and use of artificial islands,
and installations and structures having
economic purposes, and the protection and
preservation of the marine environment.

Appendix A-7
Proclamation No. 5030, 3 C.F.R. 22, 23 (1984)
(“Reagan Proclamation”). “The United States . . .
exercise[s] these sovereign rights and jurisdiction
in accordance with the rules of international law.”
Id.
Consistent with that authority and pursuant to
several statutes, the federal government regulates
a range of activity in the U.S. EEZ. The National
Marine Sanctuaries Act, 16 U.S.C. §§ 1431 et seq.
(“Sanctuaries Act”), authorizes the federal
government to designate and manage marine
sanctuaries in the “United States exclusive
economic zone.” Id. § 1437(k). The MagnusonStevens Fishery Conservation and Management
Act, 16 U.S.C. §§ 1801 et seq., empowers the federal
government to “exercise[ ] sovereign rights for the
purposes of exploring, exploiting, conserving, and
managing all fish, within the exclusive economic
zone.” Id. § 1801(b)(1). And the Outer Continental
Shelf Lands Act, 43 U.S.C. §§ 1331 et seq., provides
a framework for the federal government to exploit
the seabed’s natural resources within the “outer
Continental Shelf,” defined to include the U.S. EEZ.
Id. § 133 l(a); see id. (defining the “outer
Continental Shelf’ as “all submerged lands” beyond
the lands reserved to the States up to the edge of the
United States’ “jurisdiction and control”); see also
Dep’t of the Interior, Office of the Solicitor,
Authority to Issue Outer Continental Shelf Mineral
Leases in the Gorda Ridge Area, 92 Interior Dec.
459, 487 (May 30, 1985) (explaining that the
statutory definition of “outer Continental Shelf”
includes the submerged lands within the EEZ).

Appendix A-8
In this case, several commercial-fishing
associations (“the Fishermen”) challenged the
Monument’s designation, arguing that the
President “exceeded his statutory authority” under
the Act because (1) the ocean is not “land” under the
Antiquities Act; (2) the Monument is not compatible
with the Sanctuaries Act; (3) the U.S. EEZ is not
“controlled” by the federal government; and (4) the
area reserved is not the “smallest area compatible”
with management. Massachusetts Lobstermen’s
Association v. Ross, 349 F. Supp. 3d 48, 51, 58
(D.D.C. 2018). Several conservation groups
intervened to defend the Monument. Id. at 51.
The district court concluded that the President
acted within his statutory authority in creating the
Monument and dismissed the Fishermen’s claims.
Id. It first rejected the Fishermen’s argument that
the Monument “is per se invalid because it lies
entirely in the ocean,” explaining that “Supreme
Court precedent, executive practice, and ordinary
meaning” establish that the Act reaches submerged
land. Id. at 55-56. Second, the district court found
that the President’s interpretation of “the
Antiquities Act does not render the Sanctuaries Act
redundant” because the two statutes “address
environmental conservation . . . in different ways
and to different ends.” Id. at 59. Third, the court
found that the federal government “adequately
controls the EEZ for purposes of the Act,” id. at 60,
not only because it “exercises substantial general
authority over the EEZ” and “possesses specific
authority to regulate the EEZ for purposes of
environmental conservation,” but also because “no
private person or sovereign entity rivals the federal

Appendix A-9
government’s dominion over the EEZ,” id. at 64.
And finally, the district court addressed the
Fishermen’s “fact-specific arguments about the
boundaries of the Monument,” observing that “to
obtain judicial review of claims about a monument’s
size, plaintiffs must offer specific, nonconclusory
factual allegations establishing a problem with its
boundaries” and that the Fishermen’s “allegations
here d[id] not rise to that level.” Id. at 67.
On appeal, the Fishermen press the same
claims as they did in the district court: that the
Monument is not “land,” not compatible with the
Sanctuaries Act, not “controlled” by the federal
government, and not the “smallest area compatible”
with management.
II.
Our court set out a framework for reviewing
challenges to national monument designations in
two companion cases, Mountain States Legal
Foundation v. Bush, 306 F.3d 1132 (D.C. Cir. 2002),
and Tulare County v. Bush, 306 F.3d 1138 (D.C. Cir.
2002). There, we drew a distinction between two
types of claims: those justiciable on the face of the
proclamation
and
those
requiring
factual
development. The former are resolved “as a matter
of law” because they turn on questions of statutory
interpretation. Tulare, 306 F.3d at 1140. As for the
latter, although the precise “scope of judicial review”
remains an open question, at a minimum, plaintiffs’
pleadings must contain plausible factual allegations
identifying an aspect of the designation that
exceeds the President’s statutory authority.

Appendix A-10
Mountain States, 306 F.3d at 1133. The Fishermen’s
first three claims—that the Monument is not
“land,” not compatible with the Sanctuaries Act,
and not “controlled” by the federal government—
can be judged on the face of the proclamation and
resolved as a matter of law. Their last claim
requires plausible factual allegations that the
Monument is not the “smallest area compatible”
with management to survive dismissal. We
consider each in tum.
A.
The Fishermen first contend that the
Monument is invalid because it “is not land, as
that term is ordinarily understood.” Appellants’ Br.
22. This argument need not detain us long because,
as the district court explained, the Supreme Court
has consistently held that the Antiquities Act
reaches submerged lands and the waters
associated with them. In Cappaert v. United
States, 426 U.S. 128 (1976), the Court determined
that the Antiquities Act “g[a]ve the President
authority
to
reserve”
Devil’s
Hole—an
underground pool of water near Death Valley
that housed a rare species of fish—as part of
Death Valley National Monument, rejecting the
contention that the Act protected “archeologic
sites” only. Id. at 141-42. The Court emphatically
extended the point in United States v. California,
436 U.S. 32 (1978): “[t]here can be no serious
question that the President . . . had power under
the Antiquities Act to reserve the submerged
lands and waters” of Channel Islands National
Monument. Id. at 36. “Although the Antiquities

Appendix A-11
Act refers to ‘lands,’” the Court explained, “it also
authorizes the reservation of waters located on or
over federal lands.” Id. at 36 n.9. And in Alaska v.
United States, 545 U.S. 75 (2005), which concerned
Glacier Bay National Monument, the Court again
made clear that “the Antiquities Act empowers the
President to reserve submerged lands.” Id. at 103.
The Fishermen insist that the Supreme Court’s
pronouncements in Cappaert, California, and
Alaska are non-binding dicta because, they say, the
cases concerned only whether Presidents intended
to include submerged lands in their proclamations,
not whether they had the authority to do so. The
Fishermen are mistaken. At least in Alaska, the
Supreme Court’s holding expressly included its
determination that the Antiquities Act reaches
submerged lands. “[A] necessary part of [its]
reasoning,” the Court explained, was that “in
creating Glacier Bay National Monument the
United States had reserved the submerged lands
underlying Glacier Bay and the remaining waters
within the monument’s boundaries.” 545 U.S. at
100-01. Had the President lacked authority to
reserve the submerged lands in the first place, the
Court would have had no reason to inquire into
whether he had, in fact, intended to do so. Cf United
States v. Windsor, 570 U.S. 744, 759 (2013)
(explaining that legal conclusions that are
“necessary predicate[s]” to a court’s holding are “not
dictum”). In any event, “even if technically dictum,”
“carefully considered language of the Supreme
Court . . . generally must be treated as
authoritative.” Sierra Club v. EPA, 322 F.3d 718,

Appendix A-12
724 (D.C. Cir. 2003) (internal quotation marks
omitted).
Although the parties advanced, and the district
court considered, other arguments about whether
the Act reaches submerged lands—including
arguments about historic practice and ordinary
meaning—we need not wade into those waters, so
to speak. On-point Supreme Court precedent
resolves this claim.
B.
The Fishermen next argue that interpreting the
Antiquities Act to permit ocean-based monuments
would render the Sanctuaries Act “a practical
nullity.” Appellants’ Br. 27. Congress enacted the
Sanctuaries Act “to identify and designate as
national marine sanctuaries areas of the marine
environment which are of special national
significance and to manage these areas as the
National Marine Sanctuary System.” 16 U.S.C.
§ 1431(b)(1). Because past conservation efforts
“ha[d] been directed almost exclusively to land areas
above the high-water mark,” Congress crafted the
Sanctuaries Act to “complement[ ] existing
regulatory authorities” by protecting “certain areas
of
the
marine
environment
possess[ing]
conservation, recreational, ecological, historical,
scientific, educational, cultural, archeological, or
esthetic qualities.” Id. § 1431(a)(1), (a)(2), (b)(2). To
that end, the Sanctuaries Act empowers the
Secretary of Commerce to “designate any discrete
area of the marine environment as a national
marine sanctuary and promulgate regulations

Appendix A-13
implementing the designation,” id. § 1433, but
only after complying with certain procedural
requirements, id. §§ 1433-1434.
According to the Fishermen, by setting out a
specific process to protect marine environments,
the Sanctuaries Act precludes Presidents from
using the Antiquities Act to do the same. As the
Fishermen see it, a President’s use of the
Antiquities Act to create marine monuments
renders the Sanctuaries Act “entirely redundant”
because “[a]ny area that could be designated as a
marine sanctuary could be more easily
designated as an ocean monument . . . with the
latter approach evading all of the substantive
and procedural requirements of the former.”
Appellants’ Br. 25, 29.
The Fishermen are again mistaken. Applying
the Antiquities Act to oceans does not nullify the
Sanctuaries Act for a simple reason: the two
statutory schemes differ in several critical
respects. Whereas the Antiquities Act limits
national monuments to the “smallest area
compatible” with monument management, 54
U.S.C. § 320301(b), the Sanctuaries Act permits
marine sanctuaries to occupy an area of any size
“that will permit comprehensive and coordinated
conservation and management,” 16 U.S.C.
§ 1433(a)(5). Whereas the Antiquities Act
protects “objects of historic or scientific interest,”
54 U.S.C. § 320301(a), the Sanctuaries Act
protects areas’ “recreational,” “cultural,” or
“human-use values,” 16 U.S.C. § 1433(a)(2). And
whereas the Antiquities Act focuses on protecting

Appendix A-14
specific “objects” of historic or scientific interest,
54 U.S.C. § 320301(a), the Sanctuaries Act focuses
on designating and managing “areas as the
National Marine Sanctuary System,” 16 U.S.C.
§ 431(b)(1). Thus, a marine sanctuary may be
larger, protect more diverse values, and serve
different overall goals than an ocean-based
monument.
Indeed, we rejected a nearly identical argument
in Mountain States, where the challengers asserted
that the President’s designation of six national
monuments in the western United States “def[ied]
congressional intent regarding the scope and
purpose of ‘a host’ of other statutes enacted to
protect various archeological and environmental
values.” 306 F.3d at 1138. We disagreed, explaining
that the “contention that the Antiquities Act must
be narrowly construed in accord with [the
challengers’] view of Congress’s original intent
[regarding those statutes] misse[d] the mark”
because it “misconceive[d] federal laws as not
providing overlapping sources of protection” for
environmental values. Id. The same is true here:
that the Antiquities and Sanctuaries Acts
“provid[e] overlapping sources of protection” for
marine environments neither requires the
Antiquities Act to “be narrowly construed” nor
“def[ies] congressional intent regarding the scope
and purpose of [the Sanctuaries Act].” Id.
Contrary to the Fishermen’s contentions, then,
ocean-based monuments are perfectly compatible
with the Sanctuaries Act.

Appendix A-15
C.
Next, the Fishermen argue that the Monument
is invalid because the federal government does not
control the area of ocean where it is located. Recall
that the statute gives the President monumentcreating authority over “land owned or controlled
by the Federal Government.” 54 U.S.C. § 320301(a).
According to the Fishermen, by pairing “owned”
with “controlled,” Congress intended the two words
to have similar meanings, such that to “control[ ]”
an area the federal government’s authority there
must be akin to its authority over federally “owned”
land. And, the Fishermen continue, the federal
government lacks control, so understood, over the
U.S. EEZ.
Once more, the Fishermen misread the statute.
Generally, “[c]ontrol and ownership . . . are distinct
concepts.” Dole Food Co. v. Patrickson, 538 U.S.
468, 477 (2003). Congress made that distinction
plain here by separating “controlled” and “owned”
with the conjunction “or,” signaling that “the words
. . . are to be given separate meanings.” United
States v. Woods, 571 U.S. 31, 45 (2013) (internal
quotation marks and citations omitted). Nothing
about the proximity of “owned” to “controlled”
changes that: “[t]hat a word may be known by the
company it keeps is . . . not an invariable rule, for
the word may have a character of its own not to be
submerged by its association.” Graham County Soil
& Water Conservation District v. U.S. ex rel. Wilson,
559 U.S. 280, 288 (2010) (quoting Russell Motor Car
Co. v. United States, 261 U.S. 514, 519 (1923)).
Accordingly, the federal government may

Appendix A-16
“control[ ]” land even if it lacks authority akin to
ownership there. And, here, three factors convince
us that the federal government exercises sufficient
authority to “control[ ]” the U.S. EEZ for purposes
of the Act.
First, “under international law,” the federal
government exerts “significant” “authority to
exercise restraining and directing influence over
the EEZ.” Administration of Coral Reef Resources
in the Northwest Hawaiian Islands, 24 Op. O.L.C.
183, 196-97 (2000) (“OLC Op.”). That power includes
“substantial authority” to achieve the specific goal
advanced
here:
“protecting
the
marine
environment.” Id. at 197.
Second, the federal government possesses
substantial authority over the EEZ under domestic
law. As noted, supra at 6, the Reagan Proclamation
established U.S. sovereign dominion over the EEZ
“for the purpose of exploring, exploiting, conserving
and managing natural resources, both living and
non-living, of the seabed and subsoil and the
superjacent waters,” as well as “jurisdiction with
regard to . . . the protection and preservation of the
marine environment.” Reagan Proclamation, 3
C.F.R. at 23. Consistent with that authority,
Congress has enacted several statutes regulating
extraction and conservation activities in the EEZ,
including the Sanctuaries Act, the MagnusonStevens Act, and the Outer Continental Shelf
Lands Act.

Appendix A-17
And finally, the federal government exercises
unrivaled authority over the EEZ. Although other
nations may exercise “the freedoms of navigation
and overflight” as well as the “freedom to lay
submarine cables and pipelines” in the EEZ,
Restatement § 514(2), no other entity matches the
“extensive” “restraining and directing influence”
exerted by the federal government, OLC Op. at 19697. No private entity owns any portion of the EEZ,
and no public entity possesses equivalent sovereign
rights there. Indeed, the Supreme Court recently
explained that “the Federal Government exercise[s]
exclusive” authority over this portion of the ocean.
Parker Drilling Management Services, Ltd. v.
Newton, 139 S. Ct. 1881, 1887 (2019).
The federal government’s unrivaled authority
under both international and domestic law
establishes that it “control[s]” the EEZ for purposes
of the Act. The Fishermen’s remaining arguments
to the contrary are unavailing.
The Fishermen first invoke Treasure Salvors,
Inc. v. The Unidentified Wrecked & Abandoned
Sailing Vessel, 569 F.2d 330 (5th Cir. 1978), where
the Fifth Circuit held that the remains of a newlydiscovered shipwreck “on the continental shelf,
outside the territorial waters of the United States”
was “not situated on lands owned or controlled by
the United States under the provisions of the
Antiquities Act.” Id. at 333 n.1, 340. The
Fishermen argue that Treasure Salvors’ “logic
requires the same conclusion in this case: that
the [M]onument is not located on land owned or
controlled
by
the
federal
government.”

Appendix A-18
Appellants’ Br. 51. But Treasure Salvors
predated the Reagan Proclamation and thus
never addressed whether the federal government
exercises control over the U.S. EEZ. Accordingly,
the decision carries no significance here.
Lastly, warning of a slippery slope, the
Fishermen insist that if the Act reaches the EEZ,
then it also reaches “areas clearly meant to be
excluded, such as state and private lands.”
Appellants’ Reply Br. 32. But no such danger
lurks in the shadows of this opinion. The federal
government controls the EEZ, in part, because no
other
entity—public
or
private—exerts
competing
influence
there;
the
federal
government’s authority is “exclusive.” Parker,
139 S. Ct. at 1887. That, however, is not true of
state and private lands, where other entities—
namely, states and private parties—possess
competing authority, weakening any federal
government claim to exercise control over such
lands.
D.
This brings us to the Fishermen’s final
argument: that the Monument is not, as required
by the Act, the “smallest area compatible” with
management. 54 U.S.C. § 320301(b). In Tulare
County, we set forth the type of allegations
required to make out such a claim. That case
concerned Giant Sequoia National Monument,
which protects “groves of giant sequoias, the
world’s largest trees, and their surrounding
ecosystem.” Tulare County, 306 F.3d at 1140.

Appendix A-19
Challengers
questioned
the
monument’s
boundaries, arguing that they were larger than
necessary because “[s]equoia groves comprise[d]
only six percent of the [m]onument[’s]” area.
Tulare County v. Bush, 317 F.3d 227, 227 (D.C.
Cir. 2003) (per curiam). We concluded that the
challengers failed to state a claim because the
proclamation protected “natural resources present
throughout the [m]onument area,” meaning “[i]t
was . . . incumbent upon [the challengers] to allege
that some part of the [m]onument did not, in fact,
contain natural resources that the President sought
to protect.” Id. The six-percent allegation, we
speculated, “might well have been sufficient if the
President had identified only [s]equoia groves for
protection, but he did not,” id.; he also protected
“their surrounding ecosystem,” Tulare County, 306
F.3d at 1140.
The Fishermen’s pleadings are similarly
insufficient. They allege only that the Monument
reserves large areas of submerged land beyond the
canyons and seamounts. Although those allegations
“might well have been sufficient if the President
had identified only [the canyons and seamounts] for
protection, . . . he did not.” Tulare County, 306 F.3d
at 227. Instead, the Monument protects not only
“the canyons and seamounts themselves,” but also
“the natural resources and ecosystems in and
around them.” Monument Proclamation, 3 C.F.R. at
262 (emphasis added). “It was therefore incumbent
upon [the Fishermen] to allege that some part of the
Monument did not, in fact, contain natural
resources that the President sought to protect.”
Tulare County, 306 F.3d at 227. The Fishermen

Appendix A-20
failed to do so: the complaint contains no factual
allegations identifying a portion of the Monument
that lacks the natural resources and ecosystems the
President sought to protect.
Grasping at straws, the Fishermen assert that
“[a]n ecosystem is not an ‘object’ under the
Antiquities Act.” Compl. ¶ 75, Joint Appendix 24-25.
In Tulare County, however, we expressly held that
ecosystems are protectable “objects” under the Act:
“[i]nclusion of such items as ecosystems . . . in the
Proclamation did not contravene the terms of the
statute by relying on nonqualifying features.”
306 F.3d at 1142; cf. Alaska, 545 U.S. at 99
(explaining that the President “create[d] Glacier
Bay National Monument,” in part, to protect “the
complex ecosystem of Glacier Bay”). Accordingly,
the Fishermen’s smallest-area claim fails.
III.
We end with a housekeeping matter.
Although the district court properly found that
the Fishermen “failed to demonstrate that the
President acted outside his statutory authority”
in creating the Monument, it deemed such failure
“jurisdictional” and dismissed the complaint
“under Rule 12(b)(1), rather than Rule 12(b)(6).”
Lobstermen’s Association, 349 F. Supp. 3d at 55.
To be fair, we have been less than precise about
the basis for dismissing Antiquities Act cases.
See, e.g., Tulare County, 306 F.3d at 1140
(dismissing “for lack of subject matter
jurisdiction and for failure to state a claim upon
which relief may be granted pursuant to Federal

Appendix A-21
Rules of Civil Procedure 12(b)(1) and 12(b)(6)”).
We now clarify that where, as here, plaintiffs fail
to make out legally sufficient claims challenging
national monument designations, those claims
should be dismissed pursuant to Rule 12(b)(6).
Because district courts possess subject-matter
jurisdiction over challenges to Antiquities Act
designations under 28 U.S.C. § 1331, dismissal of
such challenges pursuant to Rule 12(b)(1) is
inappropriate. See Trudeau v. FTC, 456 F.3d 178,
185 (D.C. Cir. 2006) (explaining that where
litigants challenge the executive’s exercise of
statutory authority, “[s]ection 1331 is an
appropriate source of jurisdiction”). Accordingly,
“[a]lthough the district court erroneously
dismissed the action pursuant to Rule 12(b)(1),
we c[an]”—and do—nonetheless affirm” the
district court’s dismissal of the Fishermen’s
complaint “based on failure to state a claim under
Federal Rule of Civil Procedure 12(b)(6).” EEOC v.
St. Francis Xavier Parochial School, 117 F.3d 621,
624 (D.C. Cir. 1997).
So ordered.

Appendix A-22
Figure 1

Appendix B-1
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
MASSACHUSETTS
LOBSTERMEN’S
ASSOCIATION, et al.,

Filed Oct. 5, 2018
Civil Action
No. 17-406 (JEB)

Plaintiffs,
v.
WILBUR J. ROSS, JR.,
et al.,
Defendants.
MEMORANDUM OPINION
In 1905, Teddy Roosevelt wrote that “there can be
nothing in the world more beautiful” than the natural
wonders of the United States, and “our people should
see to it that they are preserved for their children and
their children’s children forever.” Outdoor Pastimes of
An American Hunter at 317 (1905). Roosevelt was
talking, of course, about those legendary sites that
most Americans know: Yosemite Valley, the Canyon
of Yellowstone, and the Grand Canyon.
But he might have been talking about a less wellknown — and only more recently appreciated —
natural wonder: the Canyons and Seamounts of the
Northwestern Atlantic Ocean. Like the landmarks the
twenty-sixth President had in mind, the Canyons and
Seamounts are a “region of great abundance and
diversity as well as stark geographic relief.” ECF

Appendix B-2
No. 1 (Compl.), Exh. 4 (Proclamation of Northeast
Canyons and Seamounts Marine National Monument)
at 1. Dating back 100 million years — much older than
Yosemite and Yellowstone they are home to
“vulnerable ecological communities” and “vibrant
ecosystems.” Id. at 1-2. And, as was true of the
hallowed grounds on which Roosevelt waxed poetic,
“[m]uch remains to be discovered about these unique,
isolated environments.” Id. at 4.
More than a century after Roosevelt had left
office, but in reliance on a conservation statute passed
during that time, President Barack Obama
proclaimed the Canyons and Seamounts a National
Monument. Motivated by the area’s “unique ecological
resources that have long been the subject of scientific
interest,” the President sought to protect it for future
use and study. Id. at 1.
The question before the Court in this case is
whether he had the power do so. More specifically,
does the Antiquities Act give the President the
authority to designate this monument? Plaintiffs are
various commercial-fishing associations who argue
that it does not for three reasons: first, because the
submerged lands of the Canyons and Seamounts are
not “lands” under the Antiquities Act; second, because
the federal government does not “control” the lands on
which the Canyons and Seamounts lie; and third,
because the amount of land reserved as part of the
Monument is not the smallest compatible with its
management.
The
Government,
backed
by
intervening conservation organizations and two
groups of law professor amici, disagrees entirely.

Appendix B-3
The Court concludes that, just as President
Roosevelt had the authority to establish the Grand
Canyon National Monument in 1908, see Cameron v.
United States, 252 U.S. 450 (1920), so President
Obama could establish the Canyons and Seamounts
Monument in 2016. It therefore grants Defendants’
Motion to Dismiss.
I.

Background

The Court begins with a brief discussion of the
Antiquities Act and the establishment of the
Monument before explaining the procedural history of
the case.
A. The Antiquities Act
During the nascency of America’s efforts to
protect her cultural and scientific heritage, Congress
passed the Antiquities Act of 1906. See Pub. L. No. 59209, 34 Stat. 225 (codified at 54 U.S.C. § 320301 et
seq.). Proposed initially to address the loss of
archaeological artifacts in the West, the Act has
played a central role in presidents’ modem
conservation efforts. See Bruce Babbitt, Introduction,
in The Antiquities Act of 1906 (Ronald F. Lee, 2001
Electronic Edition). Presidents have declared, in all,
157 national monuments, protecting everything from
the natural marvels of the Grand Canyon and Death
Valley to Native American artifacts in El Morro and
Chaco Canyon. See Carol Hardy Vincent & Laura A.
Hanson, Cong. Research Serv., Executive Order for
Review of National Monuments: Background and
Data at 1 (2017); see also National Park Service, List
of National Monuments, https://www.nps.gov/

Appendix B-4
archeology/sites/antiquities/monumentslist.htm (last
updated Sept. 21, 2018).
The Act works in three parts. First, it authorizes
the President, in his discretion, to declare “objects of
historic or scientific interest that are situated on land
owned or controlled by the Federal Government to be
national monuments.” 54 U.S.C. § 320301(a). Second,
it empowers her to “reserve parcels of land as a part
of the national monuments.” Id. § 32030l(b). Any
parcel of land she reserves must be “confined to the
smallest area compatible with the proper care and
management of the objects to be protected.” Id. Third,
it allows privately held land to be voluntarily given to
the federal government if the land is “necessary for
the proper care and management” of the national
monument. Id. § 320301(c). Together, those provisions
give the Executive substantial, though not unlimited,
discretion to designate American lands as national
monuments.
B. The Northeast Canyons and Seamounts
Marine National Monument
This case concerns the Northeast Canyons and
Seamounts Marine National Monument, proclaimed
by President Obama in 2016. The Monument seeks to
protect several underwater canyons and mountains,
and the ecosystems around them, situated about 130
miles off the New England coast. See Compl., ¶¶ 2, 5455. Covering in total about 4,913 square miles, the
Monument consists of two non-contiguous units that
lie within an area of the ocean known as the U.S.
Exclusive Economic Zone. See Proclamation at 2-3.
The first covers three underwater canyons that “start
at the edge of the continental shelf and drop

Appendix B-5
thousands of meters to the ocean floor.” Compl., ¶ 54.
According to the Proclamation, whose scientific
conclusions are (as yet) unchallenged, the canyons are
home to a diverse range of marine life, including
corals, squid, octopus, and several species of
endangered whales. Id.; see also Proclamation at 2-3.
Because of the oceanographic features of the canyons,
they are also home to highly migratory species like
tuna, billfish, and sharks. See Proclamation at 2-3.
The second unit covers four undersea mountains
known as seamounts. See Compl., ¶ 55. Formed up to
100 million years ago by magma erupting from the
seafloor, the seamounts are now extinct volcanoes
that are thousands of meters tall. See Proclamation at
3. According to the Proclamation, the geology of the
seamounts — namely, their steep and complex
topography — results in a “a constant supply of
plankton and nutrients to animals that inhabit their
sides” and causes an “upwelling of nutrient-rich
waters toward the ocean surface.” Id. The seamounts
thus support “highly diverse ecological communities,”
serving as homes to “many rare and endemic species,
several of which are new to science and not known to
live anywhere else on Earth.” Id. at 3-4.
Together, the geological formations of the canyons
and seamounts allow a wide range of unique and rare
species to flourish. As such, the formations and the
ecosystems surrounding them “have long been of
intense scientific interest.” Id. at 4. Although a range
of scientists has studied the area using research
vessels, submarines, and remotely piloted vehicles,
“[m]uch remains to be discovered about these unique,

Appendix B-6
isolated environments and their geological, ecological,
and biological resources.” Id.
In proclaiming the area to be a national
monument, President Obama directed the Executive
Branch to take several practical steps to conserve the
area’s resources. First, he directed the Secretaries of
Commerce and Interior to develop plans within three
years for “proper care and management” of the
canyons and seamounts. Id. at 6. Second, he required
the Secretaries to prohibit oil and gas exploration and
most commercial fishing within the Monument. Id. at
7-8. Third, he directed the Secretaries to encourage
scientific and research activities as consistent with
the Proclamation. Id. at 8-9.
C. This Lawsuit
On March 7, 2017, several commercial-fishing
associations,
including
the
Massachusetts
Lobstermen’s Association, filed this lawsuit. Claiming
injury from the restrictions on commercial fishing,
Plaintiffs seek declaratory and injunctive relief
against the President, the Secretaries of Commerce
and Interior, and the Chairman of the Council on
Environmental Quality. See Compl., ¶ 4. Invoking the
Court’s jurisdiction to conduct non-statutory review of
ultra vires executive action, see Chamber of Commerce
v. Reich, 74 F.3d 1322, 1328 (D.C. Cir. 1996), they
argue that the President lacked authority under the
Antiquities Act to declare this Monument. See Compl.,
¶¶ 3-4. The Government has now filed a Motion to
Dismiss, backed by several intervening conservation
organizations and two groups of law professor amici.
The matter is now ripe for the Court’s consideration.

Appendix B-7
II. Legal Standard
In evaluating Defendants’ Motion to Dismiss, the
Court must “treat the complaint’s factual allegations
as true . . . and must grant plaintiff ‘the benefit of all
inferences that can be derived from the facts alleged.’”
Sparrow v. United Air Lines, Inc., 216 F.3d 1111, 1113
(D.C. Cir. 2000) (quoting Schuler v. United States, 617
F.2d 605, 608 (D.C. Cir. 1979)); see also Jerome
Stevens Pharms., Inc. v. FDA, 402 F.3d 1249, 1253-54
(D.C. Cir. 2005). The Court need not accept as true,
however, “a legal conclusion couched as a factual
allegation,” nor an inference unsupported by the facts
set forth in the Complaint. See Trudeau v. FTC, 456
F.3d 178, 193 (D.C. Cir. 2006) (quoting Papasan v.
Allain, 478 U.S. 265, 286 (1986)).
Federal Rule of Civil Procedure 12(b)(6) provides
for the dismissal of an action where a complaint fails
“to state a claim upon which relief can be granted.”
Although “detailed factual allegations” are not
necessary to withstand a Rule 12(b)(6) motion, “a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (internal citation omitted). For a plaintiff
to survive a 12(b)(6) motion, the facts alleged in the
complaint “must be enough to raise a right to relief
above the speculative level.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555-56 (2007).
The standard to survive a motion to dismiss under
Rule 12(b)(1) is less forgiving. Under this Rule,
Plaintiffs bear the burden of proving that the Court
has subject-matter jurisdiction to hear their claims.
See Lujan v. Defenders of Wildlife, 504 U.S. 555, 561

Appendix B-8
(1992). A court also has an “affirmative obligation to
ensure that it is acting within the scope of its
jurisdictional authority.” Grand Lodge of Fraternal
Order of Police v. Ashcroft, 185 F. Supp. 2d 9, 13
(D.D.C. 2001). For this reason, ‘“the [p]laintiff’s
factual allegations in the complaint . . . will bear
closer scrutiny in resolving a 12(b)(1) motion’ than in
resolving a 12(b)(6) motion for failure to state a claim.”
Id. at 13-14 (quoting 5A Charles A. Wright &
Arthur R. Miller, Federal Practice and Procedure
§ 1350 (2d ed. 1987)).
III. Analysis
The Government seeks dismissal under Rules
12(b)(1) and 12(b)(6) on the grounds that the case is
not judicially reviewable and that the President did
not exceed his statutory authority. The Court agrees
with the latter but not the former.
A. Reviewability
Before diving into the merits of the case, the Court
must determine if Plaintiffs’ claims are judicially
reviewable. In other words, does the Court have any
role to play here? Despite a raft of precedent holding
otherwise, the Government initially suggests that it
does not. Defendants say that the Antiquities Act
commits national-monument determinations to the
President’s sole discretion, and, as such, those
determinations cannot be reviewed. See ECF No. 32
(Def. MTD) at 7-8. The Court disagrees. Three times
the Supreme Court has reviewed the legality of a
President’s proclamation of a national monument. See
United States v. California, 436 U.S. 32-33 (1978)
(Channel Islands National Monument); Cappaert v.

Appendix B-9
United States, 426 U.S. 128, 141-42 (1976) (Death
Valley National Monument); Cameron, 252 U.S. at
455-56 (Grand Canyon National Monument). Citing
those precedents, the D.C. Circuit has thus explained
that “review is available to ensure that the
Proclamations are consistent with constitutional
principles and that the President has not exceeded his
statutory authority.” Mountain States Legal Found. v.
Bush, 306 F.3d 1132, 1136 (D.C. Cir. 2002); accord
Tulare County v. Bush, 306 F.3d 1138, 1141 (D.C. Cir.
2002); see also Chamber of Commerce, 74 F.3d at 133132 (explaining basis for review of statutory-authority
questions). Because Plaintiffs’ claims assert that the
President exceeded his statutory authority under the
Antiquities Act — i.e., that the Proclamation was
ultra vires — they are generally reviewable.
Still, hard questions remain about the scope of
review of Plaintiffs’ claims. In that regard, two
categories of ultra vires claims should be
distinguished. First, there are those that can be
judged on the face of the proclamation. The plaintiffs
in Cappaert made such a claim when they argued that
the Devil’s Pool in Death Valley was not an “object[ ]
of historic or scientific interest” because it was not
archaeological in nature. See 426 U.S. at 141-42. So
did the plaintiff in California when it contended that
the federal government did not “control[ ]” the
submerged lands off the coast of the Channel Islands.
See 436 U.S. at 36. Judicial review of such claims
resembles the sort of statutory interpretation with
which courts are familiar. See Aid Ass’n for Lutherans
v. U.S. Postal Serv., 321 F.3d 1166, 1174-75 (D.C. Cir.
2003).

Appendix B-10
The second category requires some factual
development. The plaintiffs in Mountain States and
Tulare County brought such claims when they
asserted that the national monuments, as a factual
matter, “lack[ed] scientific or historical value.” Tulare
County, 306 F.3d at 1142. The same is true of those
plaintiffs’ claims that the monuments’ size was not
“the smallest area compatible with the proper care
and management of the objects to be protected.” Id.
Courts cannot adjudicate such claims without
considering the facts underlying the President’s
determination. See Mountain States, 306 F.3d at 1134.
The availability of judicial review of this category of
claims thus stands on shakier ground. Id. at 1133
(declining to decide “the availability or scope of
judicial review” of such claims because doing so was
unnecessary to resolve the case); see also Dalton v.
Specter, 511 U.S. 462, 474 (1994). What is clear about
this category, however, is that review would be
available only if the plaintiff were to offer plausible
and detailed factual allegations that the President
acted beyond the boundaries of authority that
Congress set. See Mountain States, 306 F.3d at 1137
(emphasizing that courts should be “necessarily
sensitive to pleading requirements where, as here,
[they are] asked to review the President’s actions
under a statute that confers very broad discretion on
the President and separation of powers concerns are
presented”).
The Lobstermen assert both types of claims here.
Their allegations that the submerged lands of the
Exclusive Economic Zone are not “land” under the
Antiquities Acts and are not “controlled” by the
federal government fall into the first category. The

Appendix B-11
Court can undoubtedly review these claims and decide
whether the President acted within the bounds of his
authority. Plaintiffs’ allegations that the land
reserved as part of the monument is not the “smallest
area compatible” with monument management,
however, lie in the second category. While the
availability and scope of review of such claims are
unsettled, the Court need not venture into those
uncharted waters because it concludes that Plaintiffs
have not offered sufficient factual allegations to
succeed.
As a quick aside, under either circumstance, the
Court’s rejection of Plaintiffs’ argument results in
dismissal under Rule 12(b)(1), rather than Rule
12(b)(6). In concluding that Plaintiffs failed to
demonstrate that the President acted outside his
statutory authority, the Court holds, at least as a
formal matter, that Plaintiffs’ claims are not subject
to further judicial review. Such a determination, as
best the Court can tell, is jurisdictional. See Griffith v.
Fed. Labor Relations Auth., 842 F.2d 487, 494 (D.C.
Cir. 1988) (concluding that district court “was without
jurisdiction to review” plaintiff’s claims because
government acted within its statutory authority).
Regardless, whether properly deemed a dismissal
under Rule 12(b)(1) or Rule 12(b)(6), the Court’s
analysis would be the same.
With that preface, the Court moves on to the
claims themselves.
B. Lands
The Lobstermen first contend that the Northeast
Canyons and Seamounts Marine National Monument

Appendix B-12
is per se invalid because it lies entirely in the ocean.
The Antiquities Act authorizes monuments on “lands”
controlled by the federal government, they say, and
the Atlantic Ocean is obviously not “land.” See ECF
No. 41 (Pl. Opp.) at 11-14. While the argument
admittedly has some surface appeal, it is buffeted by
the strong winds of Supreme Court precedent,
executive practice, and ordinary meaning. The Court
examines these and one last issue sequentially.
1. Precedent
Take precedent first. The Supreme Court has
thrice concluded that the Antiquities Act does reach
submerged lands and the water associated with them.
In Cappaert, the Court addressed a dispute about a
pool of water in the Devil’s Hole, a cavern near Death
Valley. See 426 U.S. at 131. After some discussion, it
concluded that the pool and groundwater beneath it
were properly reserved under the Antiquities Act as
part of the Death Valley National Monument. Id. at
141-42.
The Court next addressed the matter in
California, 436 U.S. 32. There, it considered whether
California or the federal government had dominion
“over the submerged lands and waters within the
Channels Islands National Monument.” Id. at 33. It
began by emphasizing that “[t]here can be no serious
question . . . that the President in 1949 had power
under the Antiquities Act to reserve the submerged
lands and waters . . . as a national monument.” Id. at
36. It explained that “[a]lthough the Antiquities Act
refers to ‘lands,’ this Court has recognized that it also
authorizes the reservation of waters located on or over
federal lands.” Id. n.9 (citing Cappaert, 426 U.S. at

Appendix B-13
138-42). The Court went on to conclude for other
reasons that title to the lands had subsequently
passed to California. Id. at 37.
Finally, just over a dozen years ago, the Court
considered how the Antiquities Act applies to
submerged lands in Alaska v. United States, 545 U.S.
75 (2005). The relevant issue in that case, like in
California, was whether Alaska or the federal
government had title to the submerged lands in
Glacier Bay off the coast of Alaska. Id. at 78. The
Court concluded that the federal government had
title, in necessary part because those submerged lands
were lawfully part of the Glacier Bay National
Monument. Id. at 101-02. The Court separately
emphasized that “[i]t is clear . . . that the Antiquities
Act empowers the President to reserve submerged
lands.” Id. at 103 (citing California, 436 U.S. at 36). In
all three opinions, then, the Court affirmed that the
Antiquities Act authorizes presidents to declare
submerged lands like the canyons and seamounts as
national monuments.
Not so fast, Plaintiffs say: those opinions’
discussions of the Antiquities Act, they believe, are
dicta. See Pl. Opp. at 13 n.4. The Court disagrees, at
least as to Alaska. In that case, the Supreme Court
applied a two-part test to determine whether the
federal government had title to the submerged lands:
first, it asked whether the federal government had
properly reserved the land; second, it inquired
whether the federal government had demonstrated an
intent to defeat the state’s title to the land. While the
Supreme Court did not rely on the monument
designation to demonstrate the federal government’s

Appendix B-14
intent to defeat Alaska’s title (step two), it
affirmatively relied on the designation to demonstrate
that the federal government had reserved the lands
originally (step one). See 545 U.S. at 100-02. Indeed,
the Court went out of its way to emphasize that its
conclusion to that effect was “a necessary part of the
reasoning.” Id. at 101. Its decision that the submerged
lands in Glacier Bay were indeed lands under the
Antiquities Act was thus a holding, not dictum. In any
event, “[c]arefully considered language of the
Supreme Court, even if technically dictum, generally
must be treated as authoritative.” NRDC v. NRC, 216
F.3d 1180, 1189 (D.C. Cir. 2000) (quoting United
States v. Oakar, 111 F.3d 146, 153 (D.C. Cir. 1997)).
This Court is loath to hold otherwise and thus sticks
with the Supreme Court’s admonition that “the
Antiquities Act empowers the President to reserve
submerged lands.” Alaska, 545 U.S. at 103.
2. Practice
In light of those decisions, it should come as no
surprise that past presidents have frequently
reserved submerged lands as national monuments. In
addition to the Devil’s Hole, Channel Islands, and
Glacier Bay monuments, presidents have declared,
among others, the Fort Jefferson National Monument
off the coast of Florida, see 49 Stat. 3430 (1935), the
Buck Island Reef National Monument off the Virgin
Islands, see 76 Stat. 1441 (1961), and the
Papahānaumokuākea Marine National Monument off
the coast of Hawaii. See 72 Fed. Reg. 10,031 (Feb. 28,
2007); see also Administration of Coral Reef Resources
in the Northwest Hawaiian Islands, 24 Op. O.L.C.
183, 186-200 (2000) (Office of Legal Counsel opinion

Appendix B-15
explaining Executive understanding that Antiquities
Act extends to submerged lands in ocean). That
history supports interpreting the Act to reach
submerged lands. See Zemel v. Rusk, 381 U.S. 1, 11 &
n.8 (1965). Accentuating the persuasiveness of the
Executive’s longstanding interpretation, Congress
recodified the Antiquities Act with minor changes in
2014 but without modifying the Act’s reach. See N.
Haven Bd. of Ed. v. Bell, 456 U.S. 512, 535 (1982)
(explaining that Congress’s acquiescence to agency’s
construction in amending statute suggests agency has
“correctly discerned” the “legislative intent”) (quoting
United States v. Rutherford, 442 U.S. 544, 554 n.10
(1979)).
Plaintiffs contend that this executive practice and
the precedents sustaining it do not control the
circumstances of this case. They argue, in short, that
those past monuments should be distinguished
because they are not confined to submerged lands, but
also include some non-submerged lands. See Pl. Opp.
at 25-26. Why this would make a difference for the
purpose of construing the word “land” in the
Antiquities Act escapes the Court; it apparently
escapes Plaintiffs as well, for their Opposition fails to
explain the salience of the distinction. What seems
inescapable is that if the submerged lands in Glacier
Bay are “lands” under the Antiquities Act, so are the
submerged canyons and seamounts in the Atlantic
Ocean.
3. Ordinary Meaning
What this Court has already said should be
enough to settle the matter of defining lands under the
Antiquities Act. A few brief words are nonetheless

Appendix B-16
warranted in response to Plaintiffs’ argument that
“[t]he ordinary meaning of ‘land’ excludes the ocean.”
Pl. Opp. at 11. In support of that assertion, they cite
several definitions of “land” from dictionaries
published in the Rooseveltian era that define it in
opposition to “ocean.” Id. at 12 (citing, e.g., Webster’s
New International Dictionary (1st ed. 1909)). Of
course, it is true that the world is roughly divided up
into dry land, on the one hand, and ocean on the other.
But what about that part of the earth that lies
beneath the seas? It is not dry land, to be sure; yet
ordinary parlance would seem to deem places like the
ocean floor and the beds of lakes and streams land. As
it turns out, the dictionaries Plaintiffs cite would
agree. Webster’s First includes “land under water” as
a proper use of the word “land.” Webster’s New
International Dictionary at 1209. Black’s Law
Dictionary likewise defines land as “any ground soil,
or earth whatsoever,” including “everything attached
to it . . . [such] as trees, herbage, and water.” Black’s
Law Dictionary at 684 (1st ed. 1891). If that were not
enough, the Supreme Court has offered the following
commentary directly on point:
[T]he word “lands” includes everything which
the land carries or which stands upon it,
whether it be natural timber, artificial
structures, or water, and that an ordinary
grant of land by metes and bounds carries all
pools and ponds, non-navigable rivers, and
waters of every description by which such
lands, or any portion of them, may be
submerged, since, as was said by the court in
Queen v. Leeds & L. Canal Co. 7 Ad. & El. 671,

Appendix B-17
685: “Lands are not the less land for being
covered with water.”
Ill. Cent. R.R. Co. v. Chicago, 176 U.S. 646, 660 (1900)
(emphases added). That should settle it: The
Antiquities Act reaches lands both dry and wet.
4.

National Marine Sanctuaries Act

But wait. Plaintiffs offer one last argument why
the Antiquities Act does not reach submerged lands in
the oceans. They say that such a reading would
conflict with the National Marine Sanctuaries Act,
which gives the Executive Branch the authority to
designate certain areas of the marine environment as
“national marine sanctuaries” and to issue
regulations protecting those areas. See Pl. Opp. at 2633 (citing 16 U.S.C. § 1431 et seq.). The Court
understands them to be making two separate
arguments in that regard. First, they say that the
Sanctuaries Act impliedly repealed the Antiquities
Act, at least as it applied to the oceans. Id. at 26.
Second, they posit that Congress’s decision to pass the
Sanctuaries Act sheds light on its understanding that
oceans are excluded from the reach of the Antiquities
Act. Id. at 26-33. Neither argument, so to speak, holds
water.
Take the implied-repeal contention first. It is
axiomatic that “repeals by implication are not
favored.” Watt v. Alaska, 451 U.S. 259, 267 (1981).
Courts do not “infer a statutory repeal ‘unless the
later statute expressly contradicts the original act’ or
unless such a construction ‘is absolutely necessary in
order that the words of the later statute shall have
any meaning at all.’” Nat’l Ass’n of Home Builders v.

Appendix B-18
Defenders of Wildlife, 551 U.S. 644, 662 (2007)
(formatting modified) (quoting Traynor v. Turnage,
485 U.S. 535, 548 (1988)). Plaintiffs, moreover, do not
attempt to make the kind of showing required for an
implied-repeal argument. And for good reason. Not
only does the Sanctuaries Act fail to mention the
Antiquities Act, but it also expressly provides that it
is intended to “complement[ ] existing regulatory
authorities.” 16 U.S.C. § 1431(b)(2).
The post-enactment-intent argument similarly
provides the Lobstermen’s boat little headway. It is
true, as they note, that “the meaning of one statute
may be affected by other Acts, particularly where
Congress has spoken subsequently and more
specifically to the topic at hand.” Pl. Opp. at 29
(quoting FDA v. Brown & Williamson, 529 U.S. 120,
133 (2000)). But subsequent acts may also “provid[e]
overlapping sources of protection,” intended to
complement earlier enactments. See Mountain States,
306 F.3d at 1138; see also United States v. Borden Co.,
308 U.S. 188, 198 (1939) (statutes “may be merely
affirmative, or cumulative, or auxiliary”). Such was
the case in Mountain States. There, the plaintiffs
argued that “the specific provisions of the numerous
environmental statutes adopted in the years following
enactment of the Antiquities Act,” including the
Endangered Species Act and the Wilderness Act,
demonstrated that Congress did not intend for the
Antiquities Act to address similar environmental
values. See Brief for Appellant, Mountain States, 306
F.3d 1132 (No. 01-5421). They believed that those
more specific enactments provided “the sole
mechanisms by which certain environmental values
were to be protected.” Id. The Court disagreed,

Appendix B-19
explaining that the argument “misconceives federal
laws as not providing overlapping sources of
protection.” 306 F.3d at 1138. In other words, the
subsequent environmental statutes provided the
Executive Branch with a targeted way of addressing
similar environmental concerns — the fact that
Congress subsequently expanded the Executive’s tools
to protect the environment, however, did not
invalidate Congress’s prior authorization to the
Executive to designate national monuments. Id.
The Court concludes that, as in Mountain States,
the Antiquities Act’s reach is unaffected by
subsequent statutory enactments such as the
Sanctuaries Act. As the Court interprets them, both
Acts address environmental conservation in the
oceans. Yet they do so in different ways and to
different ends. Begin with the purposes of the Acts.
The Antiquities Act is entirely focused on
preservation. The Sanctuaries Act, on the other hand,
addresses a broader set of values, including
“recreation[ ]” and the “public and private uses of the
[ocean] resources.” 16 U.S.C. §§ 1431(a)(2), 1431(b)(6).
In line with their different purposes, the Acts’
regulatory tools also vary. The Antiquities Act
provides presidents with a blunt tool aimed at
preserving objects of scientific or historic value. The
Sanctuaries Act, on the other hand, offers a targeted
approach, incorporating feedback from a host of
stakeholders
and
reflecting
more
tailored
conservation measures. See 16 U.S.C. § 1434(a)(5)
(outlining procedures and explaining that commercial
fishing, among other private uses, generally
permitted). Contrary to Plaintiffs’ argument, then, the
Court’s interpretation of the Antiquities Act does not

Appendix B-20
render the Sanctuaries Act redundant. Far from it.
Like the Endangered Species Act in Mountain States,
the Sanctuaries Act gives the President an important,
but more targeted, implement to achieve an
overlapping, but not identical, set of goals.
Considered in the broader context of
Congressional involvement in marine conservation,
Plaintiffs’ post-enactment-intent argument faces
another problem. When Congress passed the
Sanctuaries Act in 1972, it acted on a backdrop of
presidential
practice
establishing
national
monuments on submerged lands, aimed at conserving
natural resources. See e.g., 53 Stat. 2534 (1939)
(Glacier Bay Expansion); 76 Stat. 1441 (1961) (Buck
Island Reef). If the later Congress had a narrower
understanding of the Antiquities Act’s reach, as
Plaintiffs contend, it might be expected to have
expressly amended or repealed the Act when it passed
the Sanctuaries Act. It did not do so. See supra at 1213. The natural inference from Congress’s silence is
not that it intended to change the Antiquities Act’s
reach, but that it intended to keep it the same.
These circumstances, among others, also show
why Plaintiffs’ reliance on FDA v. Brown &
Williamson Tobacco, 529 U.S. at 133, is misplaced.
Much simplified, the question in that case was
whether the FDA could regulate tobacco. Id. In
concluding that it could not, the Supreme Court
emphasized that the FDA had made “consistent and
repeated statements that it lacked authority” to
regulate tobacco, id. at 144, and Congress had
subsequently passed several more specific statutes
regulating tobacco, thereby “ratify[ing] the FDA’s

Appendix B-21
prior position that it lacks jurisdiction.” Id. at 158.
This case is different. Here, as mentioned, Congress
enacted the Sanctuaries Act against the backdrop of
the Executive’s position that the Antiquities Act
reaches submerged lands. So, if the Sanctuaries Act
ratified
anything,
it
was
the
Executive’s
understanding that the Act reaches certain
submerged lands.
Finally, while on the subject of later Congresses’
intents, it is worth emphasizing again that the
legislature recodified the Antiquities Act with several
small amendments in 2014 without altering its scope.
By that point, more presidents had declared marine
national monuments, and several of those monuments
had been sustained by the Supreme Court. See supra
at 10-13. The response from Congress? Silence. Had
later Congresses understood the Antiquities Act not to
reach submerged lands in the oceans or the
Sanctuaries Act to alter the Antiquities Act, as
Plaintiffs contend, one might expect them to have
effectuated that understanding somewhere in the U.S.
Code.
*

*

*

The Court, accordingly, rejects Plaintiffs’
argument that this Monument exceeds the President’s
authority under the Antiquities Act because it lies
entirely beneath the waves.
C. Control
With plenty of bait left, the Lobstermen next
argue that the Monument is invalid because the
Government does not adequately “control” the

Appendix B-22
Exclusive Economic Zone, the sector of the ocean
where the Monument lies. Recall that presidents may
only declare national monuments on land “owned or
controlled by the Federal Government.” 54 U.S.C.
§ 320301(a). Plaintiffs contend that the Antiquities
Act requires the federal government to maintain
“complete” control over the area, and that the
Government lacks such control over the EEZ. See Pl.
Opp. at 14. This argument hauls in no more catch
than Plaintiffs’ prior one about submerged lands. The
Court starts by explaining why it disagrees with
Plaintiffs’
interpretation
of
“control”
before
articulating why it concludes that the federal
government adequately controls the EEZ for purposes
of the Act.
1. “Complete” Control
Plaintiffs contend that the phrase “lands owned or
controlled by the federal government” should be
interpreted to mean “lands owned or completely
controlled by the federal government.” See Pl. Opp. at
14-15. The Court cannot concur. The ordinary
meaning of the word, backed by statutory context and
Supreme Court precedent, demonstrates that
Congress meant something less than complete control.
The Court starts with the plain meaning of the
word “control.” Relying on definitions from Webster’s
First Dictionary, Plaintiffs argue that “control” means
“to exercise complete dominion.” Id. at 14. Webster’s
First defines control as follows: “To exercise
restraining or directing influence over; to dominate;
regulate; hence, to hold from action; to curb; subject;
overpower.” Webster’s New International Dictionary at
490. None of the definitions they cite supports

Appendix B-23
Plaintiffs’ understanding. Most of the definitions,
including “to exercise directing influence, regulate,
hold from action, curb,” clearly indicate something
less than absolute control. But even the most
favorable definitions for Plaintiffs — e.g., “to dominate
and overpower” — arguably suggest something less
than complete control. Consider a simple example: If
a technology investor said that IBM “dominated” the
market for laptop computers, one would not
understand her to mean that it “exercised complete
dominion” over the market. Rather, she would be
understood to say that IBM is the unrivaled leader in
the market, though other companies continue to
compete with it. Replace dominate with control and
the meaning remains largely the same. Far from
supporting Plaintiffs’ understanding of control, the
dictionary definitions thus suggest a broader
interpretation of the term.
In response, the Lobstermen invoke several
canons of interpretation. They first raise noscitur a
sociis — the rule that “a word is known by the
company it keeps.” Gustafson v. Alloyd Co., 513 U.S.
561, 575 (1995). Because “controlled” is grouped with
the word “owned,” Plaintiffs argue it should refer to
the same degree of control as ownership. See Pl. Opp.
at 15. The Court is unpersuaded. Rejecting a nearly
identical contention, the Supreme Court has
explained that “[t]he argument seems to assume that
pairing a broad statutory term with a narrow one
shrinks the broad one, but there is no such general
usage.” S.D. Warren Co. v. Maine Bd. of
Environmental Protection, 547 U.S. 370, 379 (2006);
see also Graham County Soil & Water Conserv. Dist.
v. United States ex rel. Wilson, 559 U.S. 280, 288-89

Appendix B-24
(2010) (“[T]hree items . . . [are] too few and too
disparate to qualify as string of statutory terms.”)
(internal quotation marks and citation omitted). Just
as the Supreme Court refused to apply noscitur a
sociis to narrow the broader term in a two-term list,
S.D. Warren, 547 U.S. at 379-81, this Court rejects
application of the canon here. Indeed, the
Lobstermen’s noscitur a sociis argument is weaker
even than the one rejected in S.D. Warren. There at
least, the two-term list was conjunctive — i.e.,
separated by an “and.” Id. at 379. Here, Congress
separated ownership and control with the word “or,”
whose use “is almost always disjunctive, that is, the
words it connects are to be given separate meanings.”
Loughrin v. United States, 134 S. Ct. 2384, 2390
(2014) (quoting United States v. Woods, 571 U.S. 31,
45 (2013)). Just so here, for control and ownership “are
distinct concepts.” Dole Food Co. v. Patrickson, 538
U.S. 468, 477 (2003). A statutory canon focused on
“identifying a common trait that links all the words”
is thus particularly inapplicable. See Yates v. United
States, 135 S. Ct. 1074, 1097 (2015) (Kagan, J.,
dissenting).
Not dissuaded, Plaintiffs next invoke the rule
against surplusage. See Pl. Op. at 15. They say that a
broader interpretation of the term “control” — to
mean something less than absolute dominion — would
render irrelevant the term “owned.” Id. But Plaintiffs’
interpretation does not resolve any surplusage
problem. Assuming “control” requires “the same
degree of control” as ownership, see Pl. Opp at 15, the
term “ownership” is equally irrelevant as it would be
under a broader understanding of “control.” The Court
thus rejects the surplusage argument. See Bruesewitz

Appendix B-25
v. Wyeth LLC, 562 U.S. 223, 236 (2011) (rejecting
surplusage argument that did not resolve surplusage
problem).
Somewhat more interesting, though ultimately
just as unpersuasive, are Plaintiffs’ legislative-history
arguments. See Pl. Opp. at 15-17. In that regard, they
note that earlier versions of the Antiquities Act used
the phrase “public lands,” rather than “lands owned or
controlled by the United States.” Compare 54 U.S.C.
§ 320301(a) with S. 5603, 58th Cong. (1904). Plaintiffs
contend that the change was precipitated by one
senator’s remark in a subcommittee hearing on an
earlier version of the Bill. See Preservation of Historic
and Prehistoric Ruins, Hearing before the Subcomm.
of the Senate Committee on Public Lands, 58th Cong.
Doc. No. 314, at 24 (1904). There, Senator Fulton had
the following exchange with the Commissioner of
Indian Affairs:
Senator FULTON: I suppose the public lands
would include these Indian reservations?
Commissioner Jones: No; I think not.
Senator FULTON: They are public lands,
although the Indians have possession .
Commission JONES: Take the Southern Ute
Reservation in the case cited—
Senator FULTON: Still the Government has
control absolutely.
Id.
Plaintiffs maintain that this exchange, taken with
the change in the final Bill’s language, demonstrates
that by “control,” Congress meant “absolute control.”
Pl. Opp at 16. This argument encounters any number

Appendix B-26
of problems. For one, “[t]he remarks of a single
legislator, even the sponsor, are not controlling in
analyzing legislative history,” Chrysler Corp. v.
Brown, 441 U.S. 281, 311 (1979), particularly where
the record lacks “evidence of an agreement among
legislators on the subject.” Rivers v. Roadway Exp.,
Inc. 511 U.S. 298, 308-09 n.8 (1994). Here, Plaintiffs
present no persuasive evidence that Senator Fulton’s
statement, insofar as it in fact reflected his view and
correctly described the law, embodied Congress’s view
of the matter. The Bill was ultimately passed by a
different Congress several years after the hearing in
question, with no substantiated connection between
Senator Fulton’s statement and the language of the
final Bill.
A second problem is that Senator Fulton’s remark
is highly equivocal. Based on the hearing transcript,
Fulton appeared to interrupt Commissioner Jones to
answer his own question, stating that Indian
reservations “are public lands.” 58th Cong. Doc. No.
314, at 24 (emphasis added). Indeed, when Jones was
subsequently asked whether the proposed bill would
allow the Interior Department to protect artifacts on
Indian lands, he replied, “I think this bill will cover
it[.]” Id. One reading of the exchange is that Fulton
and Jones agreed that the proposed Bill’s coverage of
public lands would include Indian lands. If that were
so, it would mean the addition of the phrase “lands
controlled by the federal government” did not arise
from this exchange. The takeaway is that the isolated
comments Plaintiffs pick out are, to put the matter
generously, equivocal and therefore unreliable
evidence of legislative intent.

Appendix B-27
Even if Plaintiffs were correct that the proposed
Bill was amended to ensure the Act covered Indian
lands, that would not mean that “control” means
“absolute control.” Contrary to Senator Fulton’s
statement, the federal government did not (and does
not) maintain absolute control over Indian lands. The
Supreme Court said as much in United States v. Sioux
Nation of Indians, 448 U.S. 371 (1980): “[A] reviewing
court must recognize that tribal lands are subject to
Congress’ power to control and manage the tribe’s
affairs. But the court must also be cognizant that ‘this
power to control and manage [is] not absolute.’” Id. at
415 (emphasis added) (quoting United States v. Creek
Nation, 295 U.S. 103, 109 (1935)); see also American
Indian Law Deskbook § 3.8 (May 2018) (“Tribes and
individual Indians have acquired significant control
over their land and its resources.”). So, even if
Congress had in mind the level of control the federal
government had over Indian lands when it added the
word “control” to the Antiquities Act, it would not
support Plaintiffs’ “absolute control” interpretation.
The more persuasive interpretation of “control”
does not require inserting an adjective in front of the
word to achieve a desired meaning. See EEOC v.
Abercrombie & Fitch Stores, Inc., 135 S. Ct. 2028, 2033
(2015) (“The problem with this approach is the one
that inheres in most incorrect interpretations of
statutes: It asks us to add words to the law to produce
what is thought to be a desirable result.”). Instead, it
tracks the ordinary understanding of the term, as
discussed above and as reflected in the way the
Supreme Court has used the term. The Court’s
decision in California is a good example. Recall that
the Court in that case affirmed that the federal

Appendix B-28
government “controlled” the waters in the territorial
sea, supporting the President’s authority to establish
the Channel Islands National Monument. See 436
U.S. at 36 (discussing United States v. California, 332
U.S. 804, 805 (1947)). Even Plaintiffs appear not to
contest that the federal government controls the
territorial sea. Yet that control is neither “complete”
nor “absolute.” States may exercise their police powers
there. See United States v. Louisiana, 394 U.S. 11, 22
(1969). Other nations have “the right of innocent
passage” through that territory — viz., passage that
“is not prejudicial to the peace, good order, or security
of the coastal state.” Restatement (Third) of Foreign
Relations Law § 513 (last updated June 2018). When
it stated that the federal government “controlled” the
territorial sea, California, 436 U.S. at 36, the Court
thus had in mind something short of absolute control;
it instead understood the term to mean something
closer to, in dictionary parlance, “to exercise directing
or restraining influence over.” Webster’s First at 490.
Additional instances abound of the courts’ and
Congress’ defining areas of the ocean like the
territorial sea and beyond as under federalgovernment control. See, e.g., Outer Continental Shelf
Lands Act, 43 U.S.C. § 1331(a) (defining outer
continental shelf in part as submerged lands subject
to federal “jurisdiction and control”); see also Native
Vill. of Eyak v. Trawler Diane Marie, Inc., 154 F.3d
1090, 1091 (9th Cir. 1998) (acknowledging “sovereign
control and jurisdiction of the United States to waters
lying between 3 and 200 miles off the coast”). The
bottom line: Plaintiffs are wrong when they assert
that the Antiquities Act only extends to lands the
federal government completely controls. The voyage is

Appendix B-29
not over, however. This determination still leaves
open the question of whether the government has
enough influence over the Exclusive Economic Zone
under the Antiquities Act to constitute “control,”
which issue the Court turns to next.
2. Control of the EEZ
Three considerations convince the Court that the
federal government sufficiently controls the Exclusive
Economic Zone — where the Northeast Canyons and
Seamounts National Marine Monument is located —
to empower the President under the Antiquities Act.
First, the federal government exercises substantial
general authority over the EEZ, managing naturalresource extraction and fisheries’ health and broadly
regulating economic output there. Second, it possesses
specific authority to regulate the EEZ for purposes of
environmental conservation. Third, no private person
or sovereign entity rivals the federal government’s
dominion over the EEZ.
Some
background
to
start.
Customary
international law, which is ordinarily deemed binding
federal law in the United States, sets forth the rights
and responsibilities of nations in different parts of the
oceans and their corresponding seabeds. See
Restatement (Third) of Foreign Relations Law § 511,
Cmt. D; see also The Paquete Habana, 175 U.S. 677,
700 (1900). Abutting the coastline of the United States
lies the territorial sea, a body of water extending up to
twelve nautical miles from the coast. See Restatement
(Third) of Foreign Relations Law § 511(a). Beyond the
territorial sea is the EEZ, which “may not exceed 200
nautical miles” from the point at which the territorial
sea is measured. Id. § 511(d). To refresh the reader,

Appendix B-30
the Monument at issue lies about 130 miles off the
coast of New England, and Plaintiffs do not dispute
that it plainly sits within the EEZ. See Compl., ¶ 2.
Consistent with international law, President
Reagan established the EEZ out to 200 nautical miles
in 1983. See Proclamation No. 5030, 48 Fed. Reg.
10,605 (Mar. 10, 1983). In that Proclamation, he
claimed for the United States the authority recognized
under international law, including: (1) the sovereign
right to “explor[e], exploit[ ], conserv[e] and manag[e]
natural resources, both living and non-living, of the
seabed and subsoil and superadjacent waters”; (2) the
rights to pursue “other activities for the economic
exploitation and exploration of the zone, such as the
production of energy from the water, currents and
winds”; (3) “jurisdiction with regard to the
establishment and use of artificial islands, and
installations and structures having economic
purposes”; and (4) the responsibility for “protection
and preservation of the marine environment.” Id. The
Government therefore possesses broad sovereign
authority to manage and regulate the EEZ. That wideranging authority obviously tips the scale towards
finding that it controls the EEZ under the Antiquities
Act.
Second, the federal government has the specific
authority to regulate the EEZ for purposes of marine
conservation. As President Reagan explained in his
proclamation, the federal government maintains in
the EEZ “jurisdiction with regard to . . . the protection
and preservation of the marine environment.” Id.
International law likewise acknowledges the federal
government’s ability to issue and enforce laws and

Appendix B-31
regulations related to marine conservation in the
EEZ. See Restatement (Third) of Foreign Relations
Law § 514, Cmt. i; see also U.N. Convention on the
Law of the Sea, e.g., Art. 65 (affirming coastal nation’s
rights to regulate marine mammals in EEZ for
purposes of marine conservation), Arts. 61-62
(providing for coastal nation’s responsibilities for
fishery management and conservation).
This specific authority exists not just on paper.
Rather, the federal government exercises close
management and regulation of marine environments
in the EEZ. One way it does so is through the National
Marine Sanctuaries Act, mentioned above. See 16
U.S.C. § 1431 et seq. Under that Act, the federal
government declares marine sanctuaries in the EEZ,
over which it exercises “authority for comprehensive
and coordinated conservation and management.” Id.
1431(b)(2) (emphases added). Another is through
fisheries management under laws like the MagnusonStevens Act. Id. § 1801 et seq. One purpose of that Act
is “to take immediate action to conserve and manage
the fishery resources found off the coasts of the United
States . . . by exercising (A) sovereign rights for the
purposes of exploring, exploiting, conserving, and
managing all fish, within the exclusive economic zone.”
Id. § 1801(b)(1) (emphases added). Of course, such
enactments do not on their own give the federal
government the power to establish national
monuments in the EEZ — only the Antiquities Act can
do that. But they shed light on what kind of control
the federal government exercises over the EEZ. As the
Court sees it, the fact that the federal government
maintains and exercises specific authority under
domestic and international law to “protect the marine

Appendix B-32
environment in the EEZ” strongly suggests that
Congress would have understood the Government to
maintain the requisite level of control under the
Antiquities Act. See 24 Op. O.L.C. at 197 (suggesting
that federal government’s ability to regulate marine
environments essential to question of control of EEZ
under Antiquities Act).
Third, the federal government’s control over the
EEZ is unrivaled. As explained, the United States
exercises sovereign rights there for a host of purposes,
including natural-resource extraction, fisheries
management, marine conservation, and the
establishment of artificial islands. No other person or
entity, public or private, comes close to matching the
Government’s dominion over that area — whether for
the purposes discussed already or for any others. That
matters a great deal for understanding the sufficiency
of the Government’s control over the EEZ. For just as
control can be defined by the presence of dominion or
authority over something, so the absence of control can
be underscored by the presence of someone else’s
dominion or authority over that same thing. That no
one else challenges the federal government’s control
over the EEZ thus suggests that it possesses, rather
than lacks, control of the area.
Yet, as discussed earlier, the Government does
not claim to exercise complete control over the EEZ.
Other nations may exercise “the freedoms of
navigation and overflight” there, as well as the
“freedom to lay submarine cables and pipelines.”
Restatement (Third) of Foreign Relations Law
§ 514(2). But those limitations on U.S. control in the
EEZ are not all that different from those in the

Appendix B-33
territorial sea, which the Supreme Court has affirmed
is controlled by the federal government. See
California, 436 U.S. at 36 (discussing California, 332
U.S. at 805). In the territorial sea, as mentioned,
foreign ships maintain “the right of innocent passage”
— defined as passage that is “not prejudicial to the
peace, good order, or security of the coastal state.”
Restatement (Third) of Foreign Relations Law
§ 513(1)(a)-(b). Foreign ships thus pass through the
territorial sea, just as they pass through the EEZ.
More broadly, the presence of foreign ships and
undersea cables does not vitiate the other forms of
Government control of the EEZ, discussed in detail
above.
These three considerations demonstrate that,
under any of the range of definitions referenced above
— to regulate, to dominate, to overpower, to curb, to
exercise restraining or directing influence over — the
federal government’s control here is adequate. It bears
mentioning that this conclusion is not novel. In 2000,
the Office of Legal Counsel in the Department of
Justice — in an opinion drafted by Randolph Moss,
now a highly regarded judge in this district —
concluded, based on very similar considerations, that
the federal government controlled the EEZ for
purpose of the Antiquities Act. See 24 Op. O.L.C. at
195-97. The Government thus appears to have
maintained for over fifteen years the same
understanding prior to the creation of the Monument
at issue here. Likewise, several courts, while not
deciding the issue raised in this case, have described
the EEZ as subject to control of the federal
government. See Native Vill. of Eyak, 154 F.3d at 1091
(United States has “sovereign control and jurisdiction

Appendix B-34
. . . to waters lying between 3 and 200 miles off the
coast”); R.M.S. Titanic, Inc. v. Haver, 171 F.3d 943,
965 n.3 (4th Cir. 1999) (United States has “exclusive
control over economic matters involving fishing, the
seabed, and the subsoil”). Even Congress has
described the area as “subject to [federal] jurisdiction
and control.” 43 U.S.C. § 1331(a). This Court can be
added to that list. For all the reasons outlined, the
federal government controls the EEZ for purposes of
the Antiquities Act.
3. Plaintiffs’ Counterarguments
Not ready to head back to shore, the Lobstermen
offer three arguments to the contrary that the Court
has yet to address. First, they claim that interpreting
the Antiquities Act to reach the EEZ conflicts with the
Fifth Circuit’s decision in Treasure Salvors, Inc. v.
Unidentified Wrecked and Abandoned Sailing Vessel,
569 F.2d 330 (5th Cir. 1978). See Pl. Opp. at 33-34.
The Court disagrees for two reasons. For one, that
decision predated President Reagan’s Proclamation
establishing U.S. control over the EEZ. While the
federal government had previously claimed dominion
over the area’s minerals, see Proclamation No. 2667,
10 Fed. Reg. 12,303 (Oct. 2, 1945), it had not yet
claimed the broader authority discussed in detail
above. The non-binding case might well have come out
differently had it occurred after Reagan’s
proclamation.
For another, that decision addressed the
Antiquities Act’s reach with respect to a historic —
rather than a scientific — object. As the Office of Legal
Counsel has explained, the Government might well
have the authority to declare a scientific object in the

Appendix B-35
EEZ to be a national monument to advance
conservation goals, yet lack the authority to declare a
historic object one to advance historic-preservation
goals. See 24 Op. O.L.C. at 196. That is because the
Government possesses the sovereign right to regulate
the EEZ for purposes of marine conservation, which
the Court found persuasive above, yet lacks any
sovereign right to regulate or salvage historic objects
there. While the Court need not decide the matter, the
upshot is that the Fifth Circuit’s decision could be
correct if decided today and still have no bearing on
this Court’s conclusion that the President may
establish this national monument in the EEZ.
Second, Plaintiffs maintain that the Antiquities
Act cannot reach certain territory that was not
controlled by the United States when the Act was
passed in 1906. See Pl. Opp. at 17-18. But Congress
did not freeze the Act’s coverage in place in 1906.
Rather, by referring to “lands controlled by the U.S.
Government,” the legislature intended for the Act’s
“reach [to] change[ ] as the U.S. Government’s control
changes.” 24 Op. O.L.C. at 191. In line with that
understanding, Presidents have declared national
monuments in areas that were not under U.S. control
in 1906. See, e.g., Proclamation No. 3443, 76 Stat.
1441 (1961) (Buck Island in the Virgin Islands).
Plaintiffs concede that “Congress anticipated the
federal government obtaining additional lands within
categories covered by the Act,” but insist that
Congress did not want the Act to extend to “areas that
were categorically ineligible for federal ownership or
control in 1906.” Pl. Opp. at 17-18. Any distinction
between the two is illusory. The federal government
did not control lands in the Virgin Islands in 1906, but

Appendix B-36
once it gained such control, it could declare national
monuments there. Likewise, the federal government
did not control the waters from 3 to 200 miles off the
coast in 1906, but once it gained such control under
international and domestic law, it could declare
national monuments there. Plaintiffs offer no
evidence that Congress would have intended to treat
the EEZ and the Virgin Islands any differently — if
expansion in U.S. control and ownership can expand
the Act’s scope as to one, logically it can expand the
Act’s scope as to the other.
The Lobstermen finally resort to a classic
slippery-slope argument: If the Act reaches the EEZ,
it could reach anywhere, up to and including private
property. Id. at 20-21. Plaintiffs can rest easy: The
slope, assuming there is one, has plenty of traction. To
start, the Court does not understand the Antiquities
Act to reach anywhere the Government can regulate.
Such a reading would indeed expand the Act’s scope
to a host of private lands outside the Government’s
control. Rather, in concluding that the Antiquities Act
reaches the EEZ, the Court has emphasized that the
Government possesses broad dominion over the area,
that it possesses specific regulatory authority over the
subjects of the Monument, and that its authority there
is unrivaled. The last point particularly addresses
Plaintiffs’ concern about private property. Had a
private person or entity exercised some control or
ownership over the EEZ, that would indicate the
federal government lacked the requisite control over
the area. See supra at 27. In all, the Court’s narrow
reading of “land controlled by the federal government”
poses few of the hurricane-is-coming concerns
Plaintiffs raise.

Appendix B-37
D. Smallest Area
Finally nearing harbor, the Court addresses
Plaintiffs’ fact-specific arguments about the
boundaries of the Monument. Recall that the
Antiquities Act requires monuments to be “confined to
the smallest area [of land] compatible with the proper
care and management of the objects to be protected.”
54 U.S.C. § 320301(b). But to obtain judicial review of
claims about a monument’s size, plaintiffs must offer
specific,
nonconclusory
factual
allegations
establishing a problem with its boundaries. See
Mountain States, 306 F.3d at 1137. Plaintiffs
allegations here do not rise to that level.
The Lobstermen offer the following factual
allegations about the Monument’s size: (1) “The
monuments[’] boundaries bear little relation to the
canyons and seamounts, thereby prohibiting much
fishing outside of these areas that would have no
impact on the canyons, seamounts, or the coral that
grows on them. Between Retriever and Mytilus
Seamounts, for instance, the monument encompasses
areas that are dozens of miles from the nearest
seamount. Yet in other areas, the monument’s
boundary lies right next to a seamount excluding
areas that are at most only several miles away”; and
(2) “the monument’s canyon unit broadly sweeps in
the entire area between the canyons, as well as
significant area closer to the shore than the canyons.”
Compl., ¶¶ 73-74. The crux of the Lobstermen’s
argument seems to be that the Monument reserves
large areas of ocean beyond the objects the
Proclamation designated for protection. Id. The
problem is that this position is based on the incorrect

Appendix B-38
factual assumption that the only objects designated
for protection are the canyons and seamounts
themselves. The Proclamation makes clear that the
“objects of historic and scientific interest” include not
just the “canyons and seamounts” but also “the
natural resources and ecosystems in and around
them.” Proclamation at 2. Insofar as Plaintiffs allege
otherwise, the Court need not accept such allegations
as true because they “contradict exhibits to the
complaint or matters subject to judicial notice.”
Kaempe v. Myers, 367 F.3d 958, 963 (D.C. Cir. 2004).
With that cleared up, it becomes obvious that
Plaintiffs’ allegations are insufficient. Even if it were
true that the Monument’s boundaries do not perfectly
align with the canyons and seamounts, that would not
call into question the Monument’s size. As Intervenors
explain, the Monument’s boundaries presumably
align with the resources and ecosystems around them.
See ECF No. 44 (Intervenors Reply) at 24. Plaintiffs
allege no facts to the contrary.
The Lobstermen insist that the boundaries cannot
be based on the ecosystems and natural resources
because they are not “objects” under the Antiquities
Act. See Compl., ¶ 75. Not according to the D.C.
Circuit and the Supreme Court, which have concluded
that ecosystems are objects of scientific interest under
the Act. See Alaska, 545 U.S. at 103; Cappaert, 426
U.S. at 141-42; Cameron, 252 U.S. at 455-56; see also
Tulare County v. Bush, 306 F.3d 1138, 1142 (D.C. Cir.
2002) (“Inclusion of such items as ecosystems and
scenic vistas in the Proclamation did not contravene
the terms of the statute by relying on nonqualifying
features.”). Plaintiffs also suggest that highly

Appendix B-39
migratory species cannot be designated as
monuments under the Act because they are not
‘“situated’ upon federal lands.” Pl. Opp. at 39-40. Their
concerns are misplaced: the Proclamation did not
designate highly migratory species as objects — it
instead so designated the ecosystems surrounding the
canyons and seamounts. See Proclamation at 2.
Insofar as they might relatedly suggest that the
ecosystems are not situated on federal lands, they
would be mistaken. As the Proclamation explains, the
protected ecosystems are formed by “corals” and
“other structure-forming fauna such as sponges and
anemones” that physically rest on, and are otherwise
dependent on, the canyons and seamounts
themselves. Id.
In all, Plaintiffs offer no factual allegations
explaining why the entire Monument, including not
just the seamounts and canyons but also their
ecosystems, is too large. The Court therefore need not
undertake further review of the matter.
IV. Conclusion
For these reasons, the Court will grant
Defendants’ Motion to Dismiss under Rule 12(b)(1). A
separate Order so stating will issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: October 5, 2018

Appendix C-1
United States Court of Appeals
For The District of Columbia Circuit
No. 18-5353

September Term, 2019
1:17-cv-00406-JEB
Filed On: February 28, 2020

Massachusetts Lobstermen’s Association, et
al.,
Appellants
v.
Wilbur Ross, in his official capacity as
Secretary of Department of Commerce, et al.,
Appellees
BEFORE: Srinivasan, Chief Judge; Henderson,
Rogers, Tatel, Garland, Griffith,
Millett, Pillard, Wilkins, Katsas*,
and Rao*, Circuit Judges; and
Ginsburg, Senior Circuit Judge
ORDER
Upon consideration of appellant’s petition for
rehearing en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.

Appendix C-2
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk
* Circuit Judges Katsas and Rao did not participate in
this matter.

Appendix D-1
Filed 3/7/2017
JONATHAN WOOD,* D.C. Bar No. 1045015
E-mail: jw@pacificlegal.org
TODD F. GAZIANO,* Tex. Bar No. 07742200
E-mail: tfg@pacificlegal.org
Pacific Legal Foundation
3033 Wilson Blvd., Suite 700
Arlington, Virginia 22201
Telephone: (202) 888-6881
DAMIEN M. SCHIFF,* Cal. Bar No. 235101
E-mail: dms@pacificlegal.org
JOHANNA B. TALCOTT,* Cal. Bar No. 311491
E-mail: jbt@pacificlegal.org
JOSHUA P. THOMPSON, Cal. Bar No. 250955
E-mail: jpt@pacificlegal.org
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
*Pro Hac Vice pending
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
MASSACHUSETTS
LOBSTERMEN’S
ASSOCIATION
8 Otis Place
Scituate, Massachusetts 02066

No. 1:17-cv-00406

Appendix D-2

ATLANTIC OFFSHORE
LOBSTERMEN’S
ASSOCIATION
221 Third Street
Newport, Rhode Island 02840
LONG ISLAND COMMERCIAL
FISHING ASSOCIATION
P.O. Box 191
Montauk, New York 11954
GARDEN STATE SEAFOOD
ASSOCIATION
212 West State Street
Trenton, New Jersey 08608
RHODE ISLAND
FISHERMEN’S ALLIANCE
P.O. Box 337
East Greenwich, Rhode Island
02818
v.

Plaintiffs,

WILBUR J. ROSS, JR., in his
official capacity as Secretary of
Department of Commerce
1401 Constitution Ave. NW
Washington, DC 20230

Appendix D-3
BENJAMIN FRIEDMAN, in his
official capacity as Deputy
Undersecretary for Operations
for the National Oceanic and
Atmospheric Association
1401 Constitution Ave. NW,
Room 5128
Washington, DC 20230
RYAN ZINKE, in his official
capacity as Secretary of the
Department of Interior
1849 C Street, NW
Washington, DC 20240
DONALD J. TRUMP, in his
official capacity as President of
the United States
1600 Pennsylvania Ave. NW
Washington, DC 20006
JANE DOE, in her official
capacity as Chairman for the
Council on Environmental
Quality
722 Jackson Place NW
Washington, DC 20506
Defendants.
______________________________

Appendix D-4
COMPLAINT
Introduction
1. The Antiquities Act of 1906 authorizes the
President to declare historic artifacts, historic
landmarks, and other objects of historic or scientific
interest “situated upon the lands owned or controlled
by the Government of the United States” as national
monuments. The President may also reserve “parcels
of land” for a monument’s protection. These lands
must be limited to “the smallest area compatible with
proper care and management of the objects to be
protected.”
2. On September 15, 2016, the President
declared an approximately 5,000 square mile—
roughly the size of Connecticut—area of the Atlantic
Ocean to be the Northeast Canyons and Seamounts
National Marine Monument. This area lies 130 miles
from the New England coast and has been an
important commercial fishery for decades. Under the
President’s unilateral declaration, the entire area is
off-limits to many commercial fishermen, with the
rest ejected after seven years.
3. In declaring the monument, the President
exceeded his power under the Antiquities Act. The
ocean is not “land owned or controlled by the Federal
government” and, thus, is not within the President’s
monument proclaiming authority. Even if the
President could lawfully declare monuments beyond
the United States’ territorial sea, this 5,000 square
mile monument would nonetheless violate the
Antiquities Act because it is not the smallest area

Appendix D-5
compatible with protecting the canyons
seamounts on which it is purportedly based.

and

4. Therefore, the Massachusetts Lobstermen’s
Association,
Atlantic
Offshore
Lobstermen’s
Association, Long Island Commercial Fishing
Association, Garden State Seafood Association, and
Rhode Island Fishermen’s Alliance ask this Court to
declare the designation unlawful and enjoin
enforcement of its regulations and prohibitions
against fishing.
Jurisdiction and Venue
5. This Court has jurisdiction over the subject
matter of this action pursuant to 28 U.S.C. § 1331
(federal question jurisdiction); § 2201 (authorizing
declaratory relief); and § 2202 (authorizing injunctive
relief).
6. Venue is proper under 28 U.S.C. § 1391(b),
because at least one defendant resides in this district
and a substantial part of the events giving rise to this
complaint occurred here.
Parties
Plaintiffs
7. The Massachusetts Lobstermen’s Association
was established in 1963 to represent the interests of
its 1,800 members and the fishery on which their
livelihoods depend. Its mission reflects the
interdependence of species conservation and a
thriving lobster fishery. The association actively
engages with state and regional government agencies

Appendix D-6
to sustainably manage the ecosystem. For instance, it
has helped the industry shift equipment to reduce
incidental impacts on whales. It also worked with
fishery management agencies to reduce the number of
traps in the region by 30% and, prior to the monument
designation, was working to reduce traps by another
25%. The association also educates its members on
best practices and regulatory issues through a
monthly newspaper and social media. And the
association serves as the voice of the Massachusetts
lobster industry in the state legislature and
regulatory agencies. As the representative of the
Massachusetts’ lobstermen, the association, through
this lawsuit, seeks to protect its members’ interests
germane to its purposes. Cf. Hunt v. Washington
Apple Advertising Comm’n, 432 U.S. 333 (1977)
(standard for organizations to bring lawsuits on behalf
of their members in a representative capacity).
8. The Massachusetts Lobstermen’s Association
members would have standing to challenge the
monument in their own right but their participation
is not required for this lawsuit. Cf. id. The association
has approximately 250 members who will be
adversely affected, directly or indirectly, by the
monument. It will deplete the value of some of the
lobstermen’s permits—a key part of these small
businesses’ value—put more pressure on the fisheries
left open to fishermen, and impact coastal businesses
that depend on a productive lobster industry,
including marinas, bait dealers, mechanics,
processors, and restaurants. Based on the significant
impacts this monument will have on the industry, the
association spoke out against it in the only public town
hall held on the proposal. It also signed onto letters

Appendix D-7
opposing the monument as bad for the economy, the
environment, and exceeding the President’s power
under the Antiquities Act.
9. The
Atlantic
Offshore
Lobstermen’s
Association was founded in 1973 to sustain and
enhance the offshore lobster fishery. Its membership
includes the owners of 45% of the permits for offshore
lobster and Jonah crab and 57% of the total traps for
these species. It also represents dozens of shoreside
businesses related to this industry. The association
educates its members and the public about issues
affecting the offshore lobster fishery. It also supports
efforts to improve the resource, protect habitat, and
other conservation efforts that benefit the lobster
industry. As the representative of the East Coast’s
lobstermen, the association, through this lawsuit,
seeks to protect its members’ interests germane to its
purposes. Cf. Hunt, 432 U.S. 333.
10. The
Atlantic
Offshore
Lobstermen’s
Association’s members would have standing to
challenge the monument but their individual
participation is not required for this lawsuit. Cf. id.
The monument designation will displace over 11,000
lobster traps used by members of the Atlantic
Offshore Lobstermen’s Association. These traps are
hauled in weekly, year-round and are thus an
important source of employment and income for the
industry. The association estimates the impact on the
industry will be $3 million. The displacement of these
traps will cause severe disruption to the industry and
the environment. It will increase conflicts with other
gear as lobstermen invade other fisheries. Although
the lobster fishery in the Gulf of Maine/Georges Bank

Appendix D-8
is healthier than the Southern New England lobster
fishery, this displacement will put further pressure on
that fishery.
11. The Long Island Commercial Fishing
Association has represented Long Island’s commercial
fishermen since 2001. Its members include more than
150 businesses, boats, or individual fishermen who
fish for a variety of species. The Long Island
Commercial Fishing Association’s trawl and longline
fishermen have been injured by the monument
declaration, which forbids them from fishing in the
area. Previously, this was an important area for New
York’s fluke, whiting, squid, swordfish, and tuna
fishermen. Prior to the monument’s declaration, the
Association’s leaders and members met with members
of the Council on Environmental Quality to discuss
the adverse impacts the monument would have on
their industry and individual members. The
association estimates that the loss to New York
fishermen alone will be $1.6 million per year. But
these impacts are further multiplied when you
consider impacts to shoreside businesses related to
the fishermen, like marinas and restaurants. As the
representative of Long Island’s commercial fishermen,
the association, through this lawsuit, seeks to protect
its members interests germane to its purposes. Cf.
Hunt, 432 U.S. 333. The association’s member would
have standing to challenge the monument, but their
individual participation is not required for this
lawsuit. Cf. id.
12. The Garden State Seafood Association
represents the interests of New Jersey fishermen and
fishery dependent businesses. It is active on

Appendix D-9
regulatory issues at both the state and federal level
and
helps
to
coordinate
fishing
industry
representatives throughout the country. Founded in
1999, Garden State Seafood Association is a trade
association for New Jersey’s commercial fishing
industry. Its 200 members include fishing vessel
owners and operators throughout the state, from
Belford to Cape May. The Association works with
local, state, and federal governments, researches, and
others to promote the continued sustainability of New
Jersey’s $100 million commercial fishing industry. It
has also played a key role in working with regulators
to ensure that commercial fishing not have adverse
environmental consequences. In particular, it has
worked with the Mid-Atlantic Fishery Management
Council to develop a rule to protect deep-sea coral in
that region, while maintaining a productive fishery.
13. Founded in 2007, the Rhode Island
Fishermen’s Alliance is the state’s largest commercial
fishing industry advocacy organization, representing
150 members from the state’s two major ports. It has
been extensively involved in every major issue that
has confronted Rhode Island’s fishing community
since its inception, including fisheries management,
collaborative research on sustainable fishing, state
and federal lobbying, and the establishment of
festivals to promote awareness of the importance of
this industry to the community. Many of its members
are trawl fishermen who have worked in the area
included within the monument designation. Based on
the impacts of the first few months that this fishing
has been prohibited, the alliance estimates that its
fishermen will lose more than $3 million in annual
income. The impact on the many businesses that

Appendix D-10
depend on a thriving commercial fishing industry are
likely to be three times that. Representing its
members, the alliance participated in the limited
public process during the President’s consideration of
the monument, including attending a town hall and
meetings with representatives from the Council on
Environmental Quality.
Defendants
14. Donald J. Trump is the President of the
United States and is sued in his official capacity. His
predecessor, President Barack Obama, issued the
proclamation establishing the monument.
15. Wilbur J. Ross, Jr. is the Secretary of
Commerce and, under the proclamation, is charged
with enforcing the proclamation’s fishing prohibitions.
He is also required to issue a joint management plan
for the monument.
16. Benjamin Friedman is the National Oceanic
and Atmospheric Association’s Deputy Undersecretary for Operations and is sued in his official
capacity. The proclamation establishing the
monument charges the Secretary of Commerce,
through the National Oceanic and Atmospheric
Administration, with responsibility for managing the
monument. Upon information and belief, Mr.
Friedman exercises the authority over the monument
given to the National Oceanic and Atmospheric
Administration.
17. Ryan Zinke is the Secretary of Interior and is
sued in his official capacity. The proclamation
establishing the monument directs the Secretary of

Appendix D-11
Commerce to consult with the Secretary of Interior on
decisions about how to manage the monument.
Together, the Secretaries are required to issue a joint
management plan for the monument and implement
the proclamation’s fishing prohibitions.
18. Jane Doe is the Chairman for the Council on
Environmental Quality which, on information and
belief, consulted with the President and purportedly
collected evidence to support the proclamation. Nancy
Sutley, the chairman when the monument
proclamation was issued, has since stepped down and
no successor has been announced.
Legal Background
The Antiquities Act of 1906
19. Responding to reports of pueblo ruins looted
in the southwest, Congress enacted the Antiquities
Act of 1906 to empower the President to quickly and
unilaterally protect these precious antiquities.
20. Under the Antiquities Act, the President may
declare historic landmarks, historic structures, and
other objects of historic or scientific interest “situated
on land owned or controlled” by the federal
government to be national monuments. 54 U.S.C.
§ 320301(a). To protect these objects, the President
may reserve “parcels of land,” if “confined to the
smallest area compatible with the proper care and
management of the objects to be protected.” Id.
§ 320301(b). The statute also directs the agencies who
manage the monument to issue uniform rules and
regulations to carry out the purposes of the act. Id.
§ 320303.

Appendix D-12
21. The Antiquities Act “places discernible limits”
on the President’s power to declare monuments.
Mountain States Legal Found. v. Bush, 306 F.3d 1132,
1136 (D.C. Cir. 2002). Therefore, courts are “obligated
to determine whether statutory restrictions have been
violated.” Id.
22. The first of those limits is that only “historic
landmarks,” “historic and prehistoric structures,” and
similar “objects of historic or scientific interest” may
form the basis of a monument designation. 54 U.S.C.
§ 320301(a); cf. Yates v. United States, 135 S. Ct. 1074
(2015) (applying noscitur a sociis and statutory
context to hold that a fish is not a “tangible object” in
the context of the Sarbanes-Oxley Act).
23. The second limit is that a monument may only
be designated for objects on “land owned or controlled
by the Federal government[.]” 54 U.S.C. § 320301(a).
Consistent with Congress’ purpose of protecting
historic Indian artifacts, this phrase includes Indian
lands and federal territories that are controlled but
not owned by the federal government. In 1906, most
of the Southwest, where these objects were located,
was Indian land or federal territory. The Antiquities
Act does not authorize the President to designate
monuments on anything other than lands “owned or
controlled” by the federal government. A monument
may not be designated on privately owned land. Nor
may one be designated beyond the nation’s territory,
including the high seas. Cf. Treasure Salvors, Inc. v.
Unidentified Wrecked and Abandoned Sailing Vessel,
569 F.2d 330, 337-40 (5th Cir. 1978) (holding that the
Antiquities Act does not apply to a 1622 shipwreck
beyond the nation’s territorial sea).

Appendix D-13
24. A third limit is that the area set aside for the
monument must be “confined to the smallest area
compatible with proper care and management of the
objects to be protected[.]” 54 U.S.C. § 320301(b).
Congress has twice amended the Antiquities Act in
response to Presidents abusing this power by making
huge monument designations. See 54 U.S.C.
§ 320301(d) (no monuments can be designated in
Wyoming); 16 U.S.C. § 3213 (no monuments larger
than 5,000 acres in Alaska).
Federal authority over the high seas, including the
Exclusive Economic Zone
25. In 1906, the United States’ territorial reach
extended only three miles off the coast—the limits of
the territorial sea. Beyond that was the high seas,
which were international waters. By proclamation,
President Reagan asserted that the territorial sea
extends up to 12 miles off the coast. See United States
v. Alaska, 521 U.S. 1, 8-9 (1997).
26. Under the Convention on the Law of the
Sea—which has never been ratified by Congress—the
next 188 miles from the coast are the Exclusive
Economic Zone.
27. Nations enjoy limited regulatory authority
over the Exclusive Economic Zone but do not have the
level of sovereignty they enjoy within their territories.
See Restatement (Third) of Foreign Relations Law
§ 514 cmt. c. For instance, nations may regulate oil
drilling and fishing in this area but may not interfere
with navigation or the laying of cables.

Appendix D-14
Federal regulation of ocean fisheries
28. Congress has exercised its limited authority
to regulate the Exclusive Economic Zone to protect the
environment by adopting statutes specifically directed
to this area of the ocean and establishing procedures
to protect against excess restrictions on its
sustainable use.
29. In 1972, Congress adopted the National
Marine Sanctuaries Act, which is aimed at protecting
sensitive areas of the Exclusive Economic Zone to the
extent the United States can. See 16 U.S.C. §§ 14311445(b). This statute permits the Secretary of
Commerce to designate marine sanctuaries within the
Exclusive Economic Zone based on twelve factors
explicitly set out in the statute and only after
providing notice to the public and consultation with
state regulators. 16 U.S.C. §§ 1433-1434. If a marine
sanctuary is established, the Regional Fishery
Management Council, not the Secretary, has primary
authority to regulate fishing to the extent required to
protect it. 16 U.S.C. § 1434(a)(5). The statute
encourages all public and private uses of the resources
in a marine sanctuary, to the extent compatible with
the sanctuary’s protection.
30. In 1976, Congress enacted the MagnusonStevens Fishery Conservation and Management Act,
which is more commonly known as the MagnusonStevens Act. 16 U.S.C. § 1801, et seq. This is the
primary law governing fisheries management in the
Exclusive Economic Zone. It is administered by eight
regional fishery management councils, which must
include representatives of federal and state agencies
as well the fishing industry.

Appendix D-15
31. Pursuant to the Magnuson-Stevens Act, the
regional councils prepare an annual stock assessment
for each species commercially harvested in a fishery.
If that assessment indicates that a species is being
overfished, the regional council sets an annual catch
limit. As a result of this regulatory program, nearly
90% of fisheries managed under the statute maintain
healthy, sustainable harvest levels below their annual
catch limits.
32. In addition to regulating the levels of harvest,
the regional councils regulate the gear used to fish, to
reduce impacts to the ecosystem and incidental
bycatch.
33. Unlike the Antiquities Act, these statutes
refer to the ocean or Exclusive Economic Zone
specifically, rather than “lands owned or controlled”
by the federal government, and tailor the degree of
environmental protection to the limited authority the
federal government enjoys in this area.
Factual Allegations
Georges Bank fishery
34. The Georges Bank is an elevated area of sea
floor off the Massachusetts coast that separates the
Gulf of Maine from the Atlantic Ocean.
35. Like much of the continental shelf off the
United States’ east coast, canyons pockmark the
Georges Bank’s edge.
36. Although a few companies have explored for
oil under the Georges Bank, none of those efforts have

Appendix D-16
been
successful.
Consequently,
the
federal
government has enforced a moratorium on further
drilling and exploration for decades.
37. For centuries, the Georges Bank has
supported lucrative fisheries. The iconic fishing
communities of New England and throughout the
East Coast sprang up because of the value of this
fishery.
38. Today, this area supports significant fisheries
for a wide variety of species of fish and shellfish. Those
fisheries provide an important source of income and
employment for fishermen throughout the northeast,
including Plaintiffs’ members.
39. The commercial fisheries are part of a rich
ecosystem that also features whales, sharks, sea
turtles, and other ocean species.
40. Beyond Georges Bank lie several seamounts
rising from the ocean floor. These too support fish and
other species. However, they are not the subject of
significant commercial fishing.
41. Deep-sea coral grows on both the canyons and
seamounts.
42. Fishermen are careful to avoid areas where
coral is present because it severely damages their
gear, costing the fishermen more than any benefit
that could be obtained from fishing in this area.

Appendix D-17
Existing management
43. The New England Fishery Management
Council manages the Georges Bank fishery under the
Magnuson-Stevens Act. Since that statute was
enacted, it has worked with industry, state and
federal government, and nongovernment organizations to improve sustainability of the fishery. These
efforts have included regulation of the equipment and
methods fishermen use, the areas they use them, as
well as enforcing catch limits.
44. The Atlantic States Marine Fisheries
Commission manages lobster fishing on the Georges
Bank under an interstate compact. It too has worked
with industry, state and federal government, and
nongovernmental
organizations
to
improve
sustainability. In particular, the Commission,
working with several of the Plaintiffs, has retired
traps in order to reduce pressures on the lobster stock.
Those efforts have been very successful and the
Commission’s latest stock report shows record
abundance of lobster in Georges Bank and the Gulf of
Maine.
Proposal to designate a monument in the North
Atlantic
45. In 2015, the penultimate year of formerPresident
Obama’s
second
term,
several
environmental groups petitioned the President to
designate a monument in the Atlantic Ocean before
his presidency ended.
46. The proposal met with substantial opposition
from both government and industry.

Appendix D-18
47. On September 18, 2015, the Massachusetts
Lobstermen’s Association, joined by the Atlantic
Offshore Lobstermen’s Association and several other
fishermen organizations, sent a letter to the Council
on Environmental Quality opposing the potential
monument. That letter explained the many steps
taken by the industry groups, working with state and
federal fisheries managers, to improve sustainability
of this fishery. This has included developing a
prohibition against harmful gear and improving
fishing methods during the region. The fishery in this
area is thriving precisely because of the success of
these efforts. Exhibit 1 is an accurate copy of the
Massachusetts Lobstermen’s Association letter.
48. In November 2015, Governor Baker of
Massachusetts sent a letter to the President
criticizing the proposed monument designation,
arguing that it would undermine ongoing efforts to
sustainably manage the fishery.
49. On May 9, 2016, the Atlantic States Marine
Fisheries Commission also submitted a letter on the
potential designation of a monument designation. The
letter noted that the New England Fishery
Management Council is already working on an
Omnibus Deep-Sea Coral Amendment to protect
corals in all the canyons in its region, which could be
frustrated by a monument designation. The letter
specifically requested that any monument designation
not prohibit mid-water or surface fishing methods, as
these could not impact deep-sea coral.
50. On June 27, 2016, the eight Regional Fishery
Management Councils jointly filed a letter on the
possibility of a monument designation in the North

Appendix D-19
Atlantic. That letter specifically noted that a
monument designation would frustrate the Councils’
efforts to responsibly regulate fisheries and ultimately
harm the environment. Specifically, the Councils
explained “[m]arine monument designations can be
counterproductive as they may shift fishing effort to
less sustainable practices . . .” Exhibit 2.
51. On September 14, 2016, the Southern
Georges Bank Coalition, a group made up of many of
the Plaintiffs and their members, sent the Council on
Environmental Quality a letter opposing the potential
monument designation. The Coalition argued that the
Antiquities Act does not authorize the President to
designate monuments beyond the nation’s territorial
sea and, even if it did, the proposed monument was
too big to comply with the statute. The Coalition
further argued that management of the fishery should
remain under the public, collaborative, and sciencebased process established by the Magnuson-Stevens
Act. Exhibit 3 is an accurate copy of the Southern
Georges Bank Coalition letter.
Northeast Canyons and Seamounts Marine National
Monument
52. Despite these objections, on September 15,
2016, President Obama issued a proclamation
declaring the Northeast Canyons and Seamounts
Marine National Monument. The proclamation
describes the monument as consisting of two units.
The Canyons unit includes three large underwater
canyons and two smaller ones, and covers nearly 1,000
square miles (approximately 640,000 acres). The
Seamounts
Unit
includes
four
seamounts
(underwater mountains) and covers nearly 4,000

Appendix D-20
square miles (approximately 2.56 million acres).
Exhibit 4 is an accurate copy of the President’s
Proclamation.

53. The proclamation asserts that the canyons
and seamounts, and the natural resources and
ecosystems in and around them, are “objects of

Appendix D-21
historic and scientific interest” and form the basis for
the monument designation.
54. The three underwater canyons start at the
edge of the continental shelf and drop thousands of
meters to the ocean floor. The proclamation notes that
deep-sea corals live in the canyon and form the
foundation of a deep-sea ecosystem. The steep sides of
the canyons concentrate phytoplankton, which draw
fish, whales, and other ocean species.
55. The four seamounts are part of a larger
seamount chain formed by extinct volcanoes. The
seamounts also support deep-sea coral and several
ecosystems.
56. The proclamation also asserts that the
ecosystems in the huge area around the canyons and
seamounts have drawn scientific interest. The
ecosystem includes sharks, whales, turtles, and many
highly migratory fish.
57. The proclamation offers no explanation for
why this huge section of the ocean is “lands owned or
controlled” by the federal government. Instead, it
simply asserts that protecting the marine
environment is in the public interest.
58. The proclamation offers no justification for
why this roughly 5,000 square mile (3.2 million acre)
area is the smallest area compatible with protecting
the monument.
59. The proclamation divides the authority to
manage the monument between the Secretaries of
Commerce and Interior. The Secretary of Commerce,

Appendix D-22
through the National Oceanic and Atmospheric
Administration, is responsible for managing activities
and species within the monument. The Secretary of
Interior is responsible for managing the area
pursuant to its statutory authorities. Together, the
Secretaries are directed to prepare a joint
management plan within 3 years and promulgate
regulations to protect the monument.
60. Recognizing that the federal government’s
authority to regulate this area is limited by
international law, the proclamation forbids the
Secretaries from adopting and implementing any
regulations which would exceed the federal
government’s authority even if necessary to protect
the monument. In particular, the proclamation
forbids the Secretaries from restricting the ships that
can pass through the area or the planes that can fly
over it or regulating any lawful uses of the high seas.
61. The proclamation directs the Secretaries to
specifically prohibit: energy exploration and
development within the monument; the taking or
harvesting of any living or nonliving resources within
the monument; drilling, anchoring, or dredging in the
area, unless for scientific reasons or constructing or
maintaining cables; and commercial fishing or the
possession of commercial fishing gear, if available for
immediate use.
62. The proclamation allows the Secretaries,
according to their unconstrained discretion, to permit:
research and scientific exploration; recreational
fishing; commercial fishing with some gear types but
not others for red crab, Jonah crab, and lobster, but
only for the next 7 years; other activities that do not

Appendix D-23
impact any resource within the monument; and the
construction and maintenance of underwater cables.
63. On November 14, 2016, the proclamation’s
prohibition against all fishing in the area except for
lobster and red crab went into effect. Since that time,
none of the Plaintiffs’ members who previously fished
for other species in the area have been able to do so.
Allegations Supporting
Declaratory and Injunctive Relief
64. Unless a permanent injunction is issued to
forbid the implementation of the proclamation’s
fishing prohibitions, Plaintiffs are and will continue to
be irreparably harmed. They are currently and
continuously
injured
by
the
proclamation’s
restrictions. The fishermen are suffering and will
continue to suffer a diminution of income, reduced
fishing opportunities, and depletion of their
investment in their boats and permits.
65. Plaintiffs have no plain, speedy, and adequate
remedy at law.
66. If not enjoined by this Court, Defendants will
continue to enforce the proclamation’s fishing
prohibitions and adopt regulations further restricting
fishing within the monument.
67. An actual and substantial controversy exists
between Plaintiffs and Defendants over the
President’s power to proclaim monuments in the
ocean beyond the nation’s territorial sea.

Appendix D-24
68. This case is currently justiciable because the
proclamation is self-executing and immediately
forbids many types of fishing within the monument
and requires the Secretaries to phase out remaining
fishing from the area over the next seven years.
Plaintiffs are currently and continuously injured by
the proclamation’s fishing restrictions.
69. Injunctive and declaratory relief are therefore
appropriate to resolve this controversy.
Claim for Relief
(Violation of the Antiquities Act,
54 U.S.C. §§ 320301-320303)
70. The Antiquities Act limits the President’s
authority to designate monuments to historic
artifacts, historic landmarks, and similar objects of
historic or scientific interest “situated on land owned
or controlled by the Federal government.” 54 U.S.C.
§ 320301(a). Any designation must be “the smallest
area compatible with proper care and management” of
the objects protected by the monument. Id.
§ 320301(b).
A. The President exceeded his power by
designating a monument on the ocean
rather than “lands owned or controlled” by
the federal government
71. The Northeast Canyons and Seamount
National Marine Monument purports to designate a
monument in the ocean 130 miles from the nation’s
coast. This area of the ocean is not “lands owned or
controlled” by the federal government. Therefore, the

Appendix D-25
Antiquities Act does not authorize the President to
establish the Northeast Canyon and Seamounts
Marine National Monument.
B. The President exceeded his power by
designating a monument that is not the
smallest area compatible with the care and
management of antiquities and similar
objects of historic or scientific interest
72. Even if the Antiquities Act authorized the
President to declare a monument in the ocean beyond
the territorial sea, the Northeast Canyons and
Seamounts Marine National Monument would violate
the statute because it is not “the smallest area
compatible with proper care and management” of the
canyons and seamounts on which it is purportedly
based.
73. The monuments boundaries bear little
relation to the canyons and seamounts, thereby
prohibiting much fishing outside of these areas that
would have no impact on the canyons, seamounts, or
the coral that grows on them. Between Retriever and
Mytilus Seamounts, for instance, the monument
encompasses areas that are dozens of miles from the
nearest seamount. Yet in other areas, the monument’s
boundary lies right next to a seamount excluding
areas that are at most only several miles away.
74. Similarly, the monument’s canyon unit
broadly sweeps in the entire area between the
canyons, as well as a significant area closer to shore
than the canyons. Many of these areas are miles from
the nearest canyon’s edge and fishing would not
adversely affect the canyons.

Appendix D-26
75. To the extent the monument’s overly large
size is not defended based on the canyons or
seamounts but instead the area’s marine ecosystem,
that too would exceed the President’s power under the
Antiquities Act. An ecosystem is not an “object” under
the Antiquities Act. Cf. Yates, 135 S. Ct. 1074. The
individual fish and shellfish that make up that
ecosystem are also not “objects” for the purposes of the
statute.
Request for Relief
Plaintiffs respectfully request the following relief:
1. A declaration that the Antiquities Act does
not authorize the President to establish ocean
monuments and that the establishment of the
Northeast Canyons and Seamounts National Marine
Monument is consequently unlawful;
2. An injunction forbidding the President,
Secretary of Commerce, and Secretary of Interior from
enforcing any of the proclamation’s fishing
prohibitions;
3. An injunction forbidding the Secretary of
Commerce and Secretary of Interior from issuing any
further regulations restricting fishing pursuant to the
proclamation;
4. An award of attorney’s fees, expenses, and
costs; and

Appendix D-27
5. Any other relief the Court deems just and
proper.
DATED: March 7, 2017.
Respectfully submitted,
JONATHAN WOOD,*
D.C. Bar No. 1045015
E-mail: jw@pacificlegal.org
TODD F. GAZIANO,*
Tex. Bar No. 07742200
E-mail: tfg@pacificlegal.org
Pacific Legal Foundation
3033 Wilson Blvd.,
Suite 700
Arlington, Virginia 22201
Telephone: (202) 888-6881
*Pro Hac Vice pending

/s/ Joshua P. Thompson
JOSHUA P. THOMPSON,
Cal. Bar No. 250955
E-mail: jpt@pacificlegal.org
Damien M. Schiff,*
Cal. Bar No. 235101
E-mail: dms@pacificlegal.org
JOHANNA B. TALCOTT,*
Cal. Bar No. 311491
E-mail: jbt@pacificlegal.org
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111

Attorneys for Plaintiffs

Appendix D-28
EXHIBIT 1
Massachusetts Lobstermen’s Association, Inc.
8 Otis Place — Scituate, MA 02066
Bus. (781) 545-6984 Fax. (781) 545-7837
September 18, 2015
President Barack Obama
The White House
1600 Pennsylvania Avenue, N.W.
Washington, DC 20500
RE: Opposition to Cashes Ledge and the
New England Canyons designation a National
Monument with in the region of the Gulf of Maine
Dear Mr. President;
The Massachusetts Lobstermen’s Association
along with the following organizations: Atlantic
Offshore
Lobstermen’s
Association,
Maine
Lobstermen’s Association, Downeast Lobstermen’s
Association, Maine Lobstermen’s Union, Stellwagen
Bank Charter Boat Association, Rhode Island
Lobstermen’s Association, Gloucester Fisheries
Commission and the American Bluefin Tuna
Association (Organizations); collectively represent
an estimated 10,500 commercial and charter
fishermen from New Jersey to the Canadian
Maritimes. Collectively, our Organizations are
greatly concerned and strongly oppose the proposal
put forth by environmental organizations to have
Cashes Ledge and New England Canyons designated
National Monuments. To unilaterally allow such a

Appendix D-29
designation would usurp the established habitat and
fisheries management public process and could be
economically catastrophic not only to the commercial
and charter fishermen, but also to hundreds of small
coastal communities in New England.
The iconic New England commercial lobster
industry has historically, fished within the Cashes
Ledge and canyon areas without harm to the
habitat/bottom. Over the years, the commercial
fishermen, state and federal fisheries managers, and
environmental groups have continually agreed that
the Cashes Ledge region of the Gulf of Maine is home
to a number of unique and important marine
environments. State and federal fisheries managers
have recognized the significance of this area and
taken steps to ensure the long term protection of this
unique habitat area. This includes prohibitions of
mobile bottom tending gear from the area. The only
fixed gear commercial fishery currently allowed is
the lobster fishery, which is managed under the
Atlantic Coastal Fisheries Cooperative Act, via the
Atlantic States Marine Fisheries Commission and
NOAA Fisheries. These organizations have
determined that the placement of lobster pots on the
bottom has negligible impact on the habitat/bottom
as Cashes Ledge continues to thrive even with lobster
fishing taking place.

Appendix D-30

The management measures adopted to date have
been the result of countless discussions, public
hearings, rulings and collaborative efforts of
scientists, commercial fishermen, state & federal
fisheries
managers,
and
other
important
stakeholders in the New England region. The key
point is that these efforts have all been taken in an
open, democratic, deliberative, public process that
allows individuals to offer public comments on
proposed restrictions, and offer suggestion on how to
mitigate negative impacts. Furthermore, the New
England Fishery Management Council (NEFMC)
and NOAA Fisheries have agreed to prioritize the
development of a coral amendment for the New
England area, so consideration of the New England
Canyons is premature at this time. The proposed
Council management plan will be developed in an
open public process that involves all parties,
including the environmental organizations, and

Appendix D-31
allow for extensive opportunities for comment from
all concerned parties.
We strongly oppose the designation of Cashes
Ledge and the New England Canyons as a National
Monument under the Antiquities Act. Any
designation for a National Monument would require
a unilateral action by your office, so we are
requesting that you reject any such effort and allow
the current process by NEFMC, ASMFC, and NOAA
Fisheries to take place.
Thank you for taking the time to read out letter
of concern. Should you have any further questions or
concerns please feel free to call me at 781-545-6984
or on mobile 508-738-1245.
Kind regards,
Beth Casoni, Executive Director
Massachusetts Lobstermen’s Assoc.
David Borden, Executive Director
Atlantic Offshore Lobstermen’s Assoc.
Patrice McCarron, Executive Director
Maine Lobstermen’s Assoc.
Sheila Dassatt, Executive Director
Downeast Lobstermen’s Assoc.
Charlie Wade, President
Stellwagen Bank Charter Boat Assoc.
Gregory Mataronas, President
Rhode Island Lobstermen’s Assoc.

Appendix D-32
Rock Alley, President
Maine Lobstermen’s Union
Ralph Pratt, President
American Bluefin Tuna Association
Mark Ring, Chairman
Gloucester Fisheries Commission
CC: Senate Committee on Energy and Natural
Resources
House Committee on Natural Resources
Senator Elizabeth Warren
Senator Edward Markey
Congressman William Keating
Congressman Stephen Lynch, Congressman Seth
Moulton, Governor Charles Baker, MA FWE
Commissioner George Peterson

Appendix D-33
EXHIBIT 2
U.S. Regional Fishery Management Councils

June 27, 2016
The Honorable Barack H. Obama
President of the United States
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500
Dear Mr. President:
The nation’s eight Regional Fishery Management
Councils are charged under the Magnuson-Stevens
Fishery Conservation and Management Act (MSA)
with managing, conserving, and utilizing fishery
resources. The Council Coordination Committee—
which consists of the senior leaders of the Councils—
respectfully requests your consideration of the
attached resolution. We recommend that, if any
designations impacting fishing activities are made
within the U.S. exclusive economic zone (EEZ) waters
under authorities such as the Antiquities Act of 1906,
management of fisheries, including designation of
essential fish habitat, continues to be developed,
analyzed and implemented through the public,
transparent, and science-based management process
required by the MSA.
The Councils protect essential fish habitat,
minimize bycatch, and comply with protections for
species listed under the Endangered Species Act,

Appendix D-34
marine mammals and seabirds within the U.S. EEZ.
Through implementation of the MSA, the United
States is the global leader in the successful
conservation and management of fishery resources
and associated ecosystems in a proactive sustainable
manner. Spatial management, such as marine
protected areas, is one of the tools utilized by the
Councils. Through the Council process, more than
1,000 individual spatial habitat and fisheries
conservation measures have been implemented
protecting more than 72 percent of the nation’s ocean
waters. The Councils use a public process, in a
transparent and inclusive manner, and rely on the
best scientific information available as required by the
MSA. As a result, we not only meet conservation
objectives but also ensure sustainable seafood for U.S.
consumers, promote the economies of coastal
communities and maintain the social-cultural fabric
of our nation’s recreational, commercial and
subsistence fishing communities.
We are concerned that decisions to close areas of
the U.S. EEZ through statutory authorities such as
the Antiquities Act of 1906 may not take into account
MSA requirements to achieve optimum yield from the
nation’s fishery resources and may negatively impact
jobs and recreational opportunities. We are concerned
that authorities such as the Antiquities Act of 1906 do
not explicitly require a robust public process or
science-based environmental analyses. Designations,
such as marine national monuments, may disrupt our
ability to continue to manage fisheries throughout
their range and in an ecosystem-based manner.
Marine monument designations can be counterproductive as they may shift fishing effort to less

Appendix D-35
sustainable practices that are not regulated by the
United States. For all of these reasons, we believe
fisheries management decisions should be made using
the robust process established by the MSA and
successfully used for over forty years.
Your ocean legacy includes significant progress in
curbing illegal, unregulated and unreported (IUU)
fishing and minimizing our nation’s dependence upon
seafood imports. We hope you will continue to support
our nation’s sustainable fisheries and fishing
communities by ensuring that fishing in the U.S. EEZ
continues to be managed through the MSA.
Respectfully,
s/ Carlos Farchette
Carlos Farchette, Chair
Caribbean Fishery
Management Council

s/ Dan Hull
Dan Hull, Chair
North Pacific Fishery
Management Council

s/ Kevin Anson
Kevin Anson, Chair
Gulf of Mexico Fishery
Management Council

s/ Dorothy Lowman
Dorothy Lowman, Chair
Pacific Fishery
Management Council

s/ Richard Robins
Richard Robins, Chair
Mid-Atlantic Fishery
Management Council

s/ Michelle Duval
Michelle Duval, Chair
South Atlantic Fishery
Management Council
s/ Edwin Ebisui Jr.
Edwin Ebisui Jr., Chair
Western Pacific Fishery
Management Council

Appendix D-36
s/ E.F. “Terry” Stockwell
III
E.F. “Terry” Stockwell
III, Chair
New England Fishery
Management Council
Enclosure: CCC May 24-26, 2016, Marine National
Monuments Resolution
Marine Protected Areas Established by
Regional Fishery Management Councils
Antiquities Act of 1906
Celebrating 40 Years of Regional
Fisheries Management booklet
CC: Christy Goldfuss, Managing Director, White
House Council on Environmental Quality
Penny Pritzker, U.S. Secretary of Commerce
Sally Jewel, U.S. Secretary of the Interior
Senator Lisa Murkowski, Chair, U.S. Senate
Committee on Energy and Natural Resource
Congressman Rob Bishop, Chair, US House
Committee on Natural Resources
Carlos Farchette, Chair
Caribbean Fishery
Management Council
268 Muñoz Rivera Ave.,
Suite 1108
San Juan, Puerto Rico
00918-1920
http://www.caribbeanfmc.
com

E.F. “Terry” Stockwell,
III, Chair
New England Fishery
Management Council
50 Water Street, Mill 2
Newburyport, MA
01950
http://nefmc.org/

Appendix D-37
Kevin Anson, Chair
Gulf of Mexico Fishery
Management Council
2203 N. Lois Avenue,
Suite 1100
Tampa, FL 33607
http://www.gulfcouncil.org
Michelle Duval, Chair
South Atlantic Fishery
Management Council
4055 Faber Place Drive,
Suite 201
North Charleston, SC
29405
http://www.safmc.net/
Richard Robins, Chair
Mid-Atlantic Fishery
Management Council
800 N. State St.,
Suite 201
Dover, DE 19901
http://www.mafmc.org/

Dan Hull, Chair
North Pacific Fishery
Management Council
605 West 4th,
Suite 306
Anchorage, Alaska
99501
http://www.npfmc.org/
Edwin Ebisui Jr.,
Chair
Western Pacific
Fishery Management
Council
1164 Bishop Street,
Suite 1400
Honolulu, Hawaii
96813
http://www.wpcouncil.
org/
Dorothy Lowman,
Chair
Pacific Fishery
Management Council
7700 NE Ambassador
Place, Suite 101
Portland, Oregon
97220
http://www.pcouncil.or
g/

Appendix D-38
Outcomes Statement and Recommendations
Council Coordination Committee
MARRIOTT BEACH RESORT
ST. THOMAS, U.S.V.I.
MAY 24-26, 2016
Marine National Monuments
The Council Coordination Committee (CCC) notes
the successes of the Magnuson-Stevens Fishery
Conservation and Management Act in managing
fishery resources of the United States as well as the
marine ecosystems of the United States Exclusive
Economic Zone (EEZ) and the CCC recognizes that
there have been a number of proposals regarding the
designation of new, or the expansion of existing,
Marine National Monuments within the U.S. EEZ.
Whereas,
the
Magnuson-Stevens
Fishery
Conservation and Management Act (MagnusonStevens Act) was originally passed by Congress in
1976 for the specific purpose of sustainably managing
the nation’s fishery resources to provide a food source,
recreational opportunities and livelihoods for the
people of the United States;
Whereas Congress, in passing the MagnusonStevens Act, found that “Commercial and recreational
fishing constitutes a major source of employment and
contributes significantly to the economy of the
Nation.”
Whereas, the Magnuson-Stevens Act created
eight Regional Fishery Management Councils that are

Appendix D-39
charged with managing, conserving, and utilizing
fishery resources as well as protecting essential
fisheries habitat, minimizing bycatch, and protecting
listed species within the United States Exclusive
Economic Zone;
Whereas, through the implementation of the
Magnuson-Stevens Act and through the actions of the
Regional Fishery Management Councils, the United
States has become a global leader in the successful
management of its fishery resources and associated
ecosystems in a proactive sustainable manner;
Whereas, the Regional Fishery Management
Councils and the National Marine Fisheries Service
have made great strides in managing fisheries in an
ecosystem-based manner;
Whereas, the Magnuson-Stevens Act requires
that fisheries management actions be developed
through a public process, in a transparent manner,
and based on the best scientific information available;
Whereas, the Regional Fisheries Management
Councils and the National Marine Fisheries Service
manage fisheries stocks throughout their range and
concerns have been raised that designations such as
marine monuments may disrupt the ability of the
Councils to continue to manage fisheries throughout
their range and in an ecosystem-based manner;
Whereas, the designation process of marine
national monuments under the Antiquities Act of
1906 does not explicitly require a robust public
process or that decisions be based on a science-based

Appendix D-40
environmental analyses, and does not require fishery
management or conservation as an objective;
Whereas, the Regional Fishery Management
Councils have a strong history of implementing
spatial habitat and fisheries conservation measures
(over 1000 individual spatial management measures)
in a public, transparent, science-based manner
through the Magnuson-Stevens Act.
Whereas, concern has been rained that decisions
to close areas of the U.S. EEZ, through statutory
authorities such as through the Antiquities Act of
1906, may not take into account requirements to
achieve optimum yield (OY) from the Nation’s fishery
resources, may negatively affect domestic fishing jobs,
recreational opportunities and undermine efforts by
the Regional Fishery Management Councils to
develop
and
implement
ecosystem-based
management;
Therefore be it resolved, the CCC reiterates its
support for the public, transparent, science-based
process and management required by the MagnusonStevens Fishery Conservation and Management Act.
Therefore be it further resolved, the CCC
recommends that if any designations are made in the
marine environment under authorities such as the
Antiquities Act of 1906 that fisheries management in
the U.S. EEZ waters continue to be developed,
analyzed and implemented through the public process
of the Magnuson-Stevens Fishery and Conservation
and Management Act.

Appendix D-41
s/ Carlos Farchette
Carlos Farchette, Chair
Caribbean Fishery
Management Council

s/ Dan Hull
Dan Hull, Chair
North Pacific Fishery
Management Council

s/ Kevin Anson
Kevin Anson, Chair
Gulf of Mexico Fishery
Management Council

s/ Dorothy Lowman
Dorothy Lowman, Chair
Pacific Fishery
Management Council

s/ Richard Robins
Richard Robins, Chair
Mid-Atlantic Fishery
Management Council

s/ Michelle Duval
Michelle Duval, Chair
South Atlantic Fishery
Management Council

s/ E.F. “Terry” Stockwell
III
E.F. “Terry” Stockwell
III, Chair
New England Fishery
Management Council

s/ Edwin Ebisui Jr.
Edwin Ebisui Jr., Chair
Western Pacific Fishery
Management Council

Appendix D-42
EXHIBIT 3

KELLEY DRYE & WARREN LLP
WASHINGTON HARBOUR, SUITE 400
3050 K STREET, NW
WASHINGTON, DC 20007
September 14, 2016

Christina W. Goldfuss, Managing Director
Council on Environmental Quality
722 Jackson Place NW
Washington, D.C. 20503
Dear Ms. Goldfuss:
On behalf of participants in the Southern Georges
Bank Coalition (“SGBC”), we are writing to oppose the
White House’s decision to designate a marine national
monument in the Northwest Atlantic Ocean, which we
understand to encompass Oceanographer, Lydonia,
and Gilbert Canyons and adjacent sea mounts,
starting at a depth of one hundred meters. The SGBC,
moreover, opposes the designation of such marine
protected areas pursuant to the Antiquities Act more
generally. The SGBC’s founding participants include:
Dennis Colbert, Colbert Seafood Inc. & Trebloc
Seafood Inc., Sandwich, MA; Charles Raymond, Fair
Wind, Inc., Gloucester, MA; J. Grant Moore, Broadbill
Fishing Inc., Westport, MA; Jon Williams, Atlantic
Red Crab Co., New Bedford, MA; William Palombo,

Appendix D-43
Palombo Fishing Corp., Newport, RI; Glenn Goodwin,
Seafreeze Ltd., Davisville, RI; David Spencer, Spencer
Fish & Lobster Inc., Newport, RI; Edward McCaffrey,
Silver Fox Fisheries Inc., Point Judith, RI; John
Peabody, Lady Clare Inc., Point Judith, RI; Jonathan
Shafmaster, Little Bay Lobster Co. & Shafmaster
Fishing, Newington, NH; Daniel Farnham, Silver
Dollar Seafood Inc., Montauk, NY; and Beth Casoni,
Massachusetts Lobstermen’s Association. The abovedescribed fishermen and fishing organizations are
directly affected by the monument description, as it
includes their fishing grounds. Millions of dollars of
lost revenue are at stake.
We explained in our letter dated May 4, 2016, on
behalf of another client, that the President lacks the
unilateral authority to sue the Antiquities Act to
designate marine monuments offshore. The SGBC
concurs, and submits the following additional
information. Extending the Antiquities Act’s
application into the Exclusive Economic Zone (“EEZ”)
represents an illegal and illegitimate use of
presidential authority. Moreover, by enacting what
was then called the Magnuson Fishery Conservation
and Management Act, Congress explicitly granted
regional fishery management councils authority over
fishery management activities in what has since
become the EEZ. Furthermore, this law governs
executive authority, rather than the prior-enacted and
more general Antiquities Act, and controls over the
subsequently-implemented presidential proclamation
regarding the United States EEZ more generally.
Finally, the Antiquities Act does not allow for
designation of any part of the water column as a
monument.

Appendix D-44
To be clear, the SGBC and its participants support
sound, science-based fisheries conservation and
management. They have participated—actively and
constructively—in regional fishery management
council and Atlantic interstate fishery compact
processes for decades. What they request is that the
Administration observe the limits of its authority and
honor well-developed statutory and regulatory
processes.
I. THE ANITIQUITIES ACT DOES NOT ALLOW
FOR MARINE MONUMENT DESIGNATION
IN THE EXCLUSIVE ECONOMIC ZONE
In 1906, Congress enacted the Antiquities Act,1
specifically with reference to terrestrial areas of
unique value. Far later, in what is now called the
Magnuson-Stevens
Fishery
Conservation
and
2
Management Act (“MSA”), Congress in 1976 staked a
brand new claim to an exclusive fisheries zone
seaward of the United States territorial sea, and
established a unique, quasi-legislative governance
structure, administered under the auspices of the
Department of Commerce.3 The conflict between these
two laws is evident from the circumstances of each
law’s enactment.
In 1906, no such exclusive fisheries zone or EEZ
yet existed. Rather, it was not until 1976 when
Congress declared an exclusive U.S. fishing zone—
1

16 U.S.C. §§ 431-433.

2

16 U.S.C. §§ 1801 et seq.

See generally J.H. Miles & Co. v. Brown, 910 F. Supp. 1138,
1143 (E.D. Va. 1995).
3

Appendix D-45
consistent with emerging trends in international law
of the sea—which it ultimately in 1986 MSA
amendments redefined as “the zone established by
Proclamation Numbered 5030, dated March 10,
1983.”4 Tellingly, Congress extended U.S. fisheries
jurisdiction via legislation, in a manner entirely
distinct from the manner in which the U.S.
Constitution provides for the addition of the
terrestrial states of the union.5 Notably, the MSA did
not incorporate pre-existing terrestrial management
processes but created an entirely new, fully unique,
process of regional representative government for this
newly claimed fishery zone. This newly enacted,
purpose-designed MSA thus governs the management
of U.S. fisheries in the EEZ.
The Antiquities Act did not apply to areas to
which Congress staked its MSA-based claims,
moreover, because the United States had never
claimed any right or authority to manage the area for
fisheries, natural resource protection, or anything
else, prior to 1976. As explained above, the MSA
literally invented and applied a novel system of
governance—the regional fishery management
council system—to this newly-claimed fisheries zone.
Indeed, the MSA provides that it is “to maintain
without change the existing territorial or other ocean
16 U.S.C. § 1802(11). Under the United Nations Convention on
the Law of the Sea, the EEZ is merely a zone and not a territory.
It is specifically defined as “an area beyond and adjacent to the
territorial sea.” United Nations Convention on the Law of the
Sea, art. 55, 1833 UNTS 3 (1982) (entered into force Nov. 16,
1994) (emphasis added). The Reagan Proclamation, infra note 7,
later incorporated the United Nations definition.

4

5

See U.S. Const. art. IV, § 3.

Appendix D-46
jurisdiction of the United States for all purposes other
than the conservation and management of fishery
resources.”6
Seven years after the MSA’s adoption, the
President proclaimed, as a matter of international
relations, an EEZ substantively more broad than an
exclusive fisheries zone.7 By its terms, however, the
EEZ remains “an area beyond and adjacent to the
territorial sea” of the United States. Indeed,
Proclamation 5030 further stated it “does not change
existing United States policies concerning the
continental shelf, marine mammals and fisheries…”
This condition makes sense; a presidential
proclamation, simply put, lacks the authority to
amend an Act of Congress.8 In relation to the issue of
domestic fisheries management, the MSA created a
specific governance structure that cannot be simply
overruled by presidential decree.
In 2000, in the Clinton Administration’s waning
days, the Department of Justice’s Office of Legal
Counsel (“OLC”) issued a memorandum in response to
a request from the National Oceanic and Atmospheric
Administration (“NOAA”). NOAA demonstrated,
among other claims, that the President could not

6

16 U.S.C. § 1801(c)(1) (emphasis added).

7

Presidential Proclamation No. 5030 (March 10, 1983).

See, e.g., Chamber of Commerce v. Reich, 74 F.3d 1322 (D.C. Cir.
1996) (invalidating an Executive Order that conflicted with
provisions of the National Labor Relations Act).

8

Appendix D-47
establish a national monument in the EEZ.9 OLC did
concede the question was “closer” than one of whether
the President could establish a monument within the
territorial sea.10 It also stated that, because
regulations implemented under the MSA must comply
with all other applicable law,11 there was no conflict
between the MSA and the Antiquities Act.12
In summary, while the Justice Department’s OLC
not
surprisingly
rationalized
an
expansive
envisioning of presidential authority, the experts at
NOAA who understood the MSA’s nature and intent
have the better of the argument. The Antiquities Act
explicitly states that the President may declare as
national monuments “objects of historic or scientific
interest that are situated upon the lands owned or
controlled by the Government of the United States.”13
In Alaska v. United States,14 the Supreme Court
delimited the Act’s scope to include submerged lands,
and other judicial precedent has established that the
Antiquities Act can be applied in the United States
territorial sea.15 This conclusion is satisfactory, as the
Randolph Moss, Assistant Attorney General, Administration of
Coral Reef Resources in the Northwest Hawaiian Islands,
Memorandum Opinion (Sept. 15, 2000), at 197 (“Mem. Op.”).

9

10

Id. at 196.

11

16 U.S.C. § 1853(a)(1)(c).

12

Mem. Op. at 208.

13

16 U.S.C. § 431 (emphasis added).

14

545 U.S. 75, 103 (2005).

15 See United States v. California, 436 U.S. 32 (1978); see also
Restatement (Third) of the Foreign Relations Law of the United
States § 512 (1987) (“…the coastal state has the same sovereignty

Appendix D-48
territorial sea is clearly “controlled by” the
government in a comprehensive sense. However, in
this instance, the question presented is not whether
the Secretary of Commerce can implement a fishery
management plan with provisions that conflict with a
pre-existing, legally-authorized monument designation. The question is, rather, whether the MSA and its
unique role in the EEZ represents an exercise of
federal management authority beyond the scope of the
Antiquities Act. We contend that it does.
Nor, moreover, does the OLC memorandum
address the issue of a monument designation within
the water column. A plain reading of the statutory
language referenced above—authorizing monument
designation for objects of scientific interest “situated
upon the lands owned or controlled by” the United
States government—excludes the water column from
eligibility for monument designation, and does not
allow presidential authority to manage activities
therein. The Antiquities Act does not confer
unilaterally authority on the President to create what
amounts to a marine protected area extending up
through the water column.
II. FISHERIES ARE BEST MANAGED UNDER
THE MSA
As stated above, the MSA established a specific
statutory process for managing our nation’s fisheries
in the U.S. EEZ. This regional fishery management
council system has existed and evolved over forty
over its territorial sea, and over the air space, sea-bed, and
subsoil thereof, as it has in respect of its land territory”).

Appendix D-49
years. The Mid-Atlantic Fishery Management Council
has taken, and the New England Fishery
Management Council is in the process of taking,
actions to protect the types of deep sea areas subject
to the monument designation, using public
transparent processes prescribed in detail by law.16
The council process provides a series of major
important benefits totally absent from the monument
designation process. First, as noted directly above, for
instance, the council process is, by law, open and
transparent. The Mid-Atlantic deep sea coral
protection areas represent just how cooperative such
public management processes can be. In fact, some of
the same organizations advocating for these
monuments praised the Mid-Atlantic Council’s
collaborative action. Second, the MSA requires
decisions to be made based on the best scientific
information available. In complete and total contrast,
the monument ultimately designated in the Atlantic
was largely the result of a series of political
compromises layered with a thin veneer of public
outreach.
Significantly,
courts
invalidate
management actions made under the MSA that are
the result of such political compromise rather than the
product of the best scientific information available.17

16

See generally 16 U.S.C. §§ 1852-1853.

17 See Parravano v. Babbitt, 837 F. Supp. 1034, 1047 (N.D. Cal.
1993) (“…the purpose of the Magnuson Act is to ensure that such
compromise decisions are adequately explained and based on the
best scientific evidence available—and not simply a matter of
political compromise”); see also Midwater Trawlers Co-op. v.
Dept. of Commerce, 282 F.3d 710, 720-21 (9th Cir. 2002) (stating
that while the National Marine Fisheries Service’s allocation of

Appendix D-50
III. THE PROPOSAL IS NOT NARROWLY
TAILORED AS REQUIRED UNDER THE
ANTIQUITIES ACT
The Antiquities Act requires the limits of national
monuments to be “confined to the smallest area
compatible with proper care and management of the
objects to be protected.”18 As we understand it,19
however, the proposal for a monument designation in
the Northwest Atlantic canyons if not narrowly
tailored to achieve its objectives. Unlike the
deliberative, scientifically-based fishery management
council activities to protect habitat based on the
presence of or suitability for corals, a restricted fishing
area based solely on geographic location and depth
contour is neither narrowly tailored, nor practically
defensible.
* * * * *
In conclusion, we urge you to reconsider the White
House’s position on designating a marine monument
in the Northwest Atlantic. Such a designation by an
Pacific whiting between tribes and industry groups “may well be
eminently fair, the Act requires that it is founded on science and
law, not pure diplomacy”).
18

16 U.S.C. § 431.

Significantly, there has been no proposed monument
designation that in any way would resemble a notice of proposed
rulemaking under the Administrative Procedure Act, 5 U.S.C.
§§ 553(b). Rather, the monument designation process has more
resembled a shadow-boxing exercise, largely best characterized
as an ad hoc combination of media events, hastily-arranged
“stakeholder” sessions, and often secretive bargaining. This is no
way to administer a public resource in a democracy.
19

Appendix D-51
imperial stroke of the pen would be contrary to
controlling law and principles of sound fisheries
management.
Respectfully submitted,
s/David E. Frulla
David E. Frulla
Andrew E. Minkiewicz
Anne E. Hawkins

Appendix D-52
EXHIBIT 4
Presidential Proclamation — Northeast Canyons and
Seamounts Marine National Monument
NORTHEAST CANYONS AND SEAMOUNTS
MARINE NATIONAL MONUMENT
------BY THE PRESIDENT OF THE
UNITED STATES OF AMERICA
A PROCLAMATION
For generations, communities and families have
relied on the waters of the northwest Atlantic Ocean
and have told of their wonders. Throughout New
England, the maritime trades, and especially fishing,
have supported a vibrant way of life, with deep
cultural roots and a strong connection to the health
of the ocean and the bounty it provides. Over the past
several decades, the Nation has made great strides
in its stewardship of the ocean, but the ocean faces
new threats from varied uses, climate change, and
related impacts. Through exploration, we continue to
make
new
discoveries
and
improve
our
understanding of ocean ecosystems. In these waters,
the Atlantic Ocean meets the continental shelf in a
region of great abundance and diversity as well as
stark geological relief. The waters are home to many
species of deep-sea corals, fish, whales and other
marine mammals. Three submarine canyons and,
beyond them, four undersea mountains lie in the
waters approximately 130 miles southeast of Cape
Cod. This area (the canyon and seamount area)

Appendix D-53
includes unique ecological resources that have long
been the subject of scientific interest.
The canyon and seamount area, which will
constitute the monument as set forth in this
proclamation, is composed of two units, which
showcase two distinct geological features that
support vulnerable ecological communities. The
Canyons Unit includes three underwater canyons —
Oceanographer, Gilbert, and Lydonia — and covers
approximately 941 square miles. The Seamounts
Unit includes four seamounts — Bear, Mytilus,
Physalia, and Retriever — and encompasses 3,972
square miles. The canyon and seamount area
includes the waters and submerged lands within the
coordinates included in the accompanying map. The
canyon and seamount area contains objects of
historic and scientific interest that are situated upon
lands owned or controlled by the Federal
Government. These objects are the canyons and
seamounts themselves, and the natural resources
and ecosystems in and around them.
The canyons start at the edge of the geological
continental shelf and drop from 200 meters to
thousands of meters deep. The seamounts are farther
off shore, at the start of the New England Seamount
chain, rising thousands of meters from the ocean
floor. These canyons and seamounts are home to at
least 54 species of deep-sea corals, which live at
depths of at least 3,900 meters below the sea surface.
The corals, together with other structure-forming
fauna such as sponges and anemones, create a
foundation for vibrant deep-sea ecosystems,
providing food, spawning habitat, and shelter for an

Appendix D-54
array of fish and invertebrate species. These habitats
are extremely sensitive to disturbance from
extractive activities.
Because of the steep slopes of the canyons and
seamounts, oceanographic currents that encounter
them create localized eddies and result in upwelling.
Currents lift nutrients, like nitrates and phosphates,
critical to the growth of phytoplankton from the deep
to sunlit surface waters. These nutrients fuel an
eruption of phytoplankton and zooplankton that form
the base of the food chain. Aggregations of plankton
draw large schools of small fish and then larger
animals that prey on these fish, such as whales,
sharks, tunas, and seabirds. Together the geology,
currents, and productivity create diverse and vibrant
ecosystems.
The Canyons
Canyons cut deep into the geological continental
shelf and slope throughout the mid-Atlantic and New
England regions. They are susceptible to active
erosion and powerful ocean currents that transport
sediments and organic carbon from the shelf through
the canyons to the deep ocean floor. In
Oceanographer, Gilbert, and Lydonia canyons, the
hard canyon walls provide habitats for sponges,
corals, and other invertebrates that filter food from
the water to flourish, and for larger species including
squid, octopus, skates, flounders, and crabs. Major
oceanographic
features,
such
as
currents,
temperature gradients, eddies, and fronts, occur on a
large scale and influence the distribution patterns of
such highly migratory oceanic species as tuna,

Appendix D-55
billfish, and sharks. They provide feeding grounds for
these and many other marine species.
Toothed whales, such as the endangered sperm
whale, and many species of beaked whales are
strongly attracted to the environments created by
submarine canyons. Surveys of the area show
significantly higher numbers of beaked whales
present in canyon regions than in non-canyon shelfedge regions. Endangered sperm whales, iconic in the
region due to the historic importance of the species to
New England’s whaling communities, preferentially
inhabit the U.S. Atlantic continental margin. Two
additional species of endangered whales (fin whales
and sei whales) have also been observed in the
canyon and seamount area.
The Seamounts
The New England Seamount Chain was formed
as the Earth’s crust passed over a stationary hot spot
that pushed magma up through the seafloor, and is
now composed of more than 30 extinct undersea
volcanoes, running like a curved spine from the
southern side of Georges Bank to midway across the
western Atlantic Ocean. Many of them have
characteristic flat tops that were created by erosion
by ocean waves and subsidence as the magma cooled.
Four of these seamounts — Bear, Physalia,
Retriever, and Mytilus — are in the United States
Exclusive Economic Zone. Bear Seamount is
approximately 100 million years old and the largest
of the four; it rises approximately 2,500 meters from
the seafloor to within 1,000 meters of the sea surface.
Its summit is over 12 miles in diameter. The three
smaller seamounts reach to within 2,000 meters of

Appendix D-56
the surface. All four of these seamounts have steep
and complex topography that interrupts existing
currents, providing a constant supply of plankton
and nutrients to the animals that inhabit their sides.
They also cause upwelling of nutrient-rich waters
toward the ocean surface.
Geographically isolated from the continental
platform, these seamounts support highly diverse
ecological communities with deep-sea corals that are
hundreds or thousands of years old and a wide array
of other benthic marine organisms not found on the
surrounding deep-sea floor. They provide shelter
from predators, increased food, nurseries, and
spawning areas. The New England seamounts have
many rare and endemic species, several of which are
new to science and are not known to live anywhere
else on Earth.
The Ecosystem
The submarine canyons and seamounts create
dynamic currents and eddies that enhance biological
productivity and provide feeding grounds for
seabirds; pelagic species, including whales, dolphins,
and turtles; and highly migratory fish, such as tunas,
billfish, and sharks. More than ten species of shark,
including great white sharks, are known to utilize
the feeding grounds of the canyon and seamount
area. Additionally, surveys of leatherback and
loggerhead turtles in the area have revealed
increased numbers above and immediately adjacent
to the canyons and Bear Seamount.
Marine birds concentrate in upwelling areas near
the canyons and seamounts. Several species of gulls,

Appendix D-57
shearwaters, storm petrels, gannets, skuas, and
terns, among others, are regularly observed in the
region, sometimes in large aggregations. Recent
analysis of geolocation data found that Maine’s
vulnerable Atlantic puffin frequents the canyon and
seamount area between September and March,
indicating a previously unknown wintering habitat
for those birds.
These canyons and seamounts, and the
ecosystem they compose, have long been of intense
scientific interest. Scientists from government and
academic oceanographic institutions have studied
the canyons and seamounts using research vessels,
submarines, and remotely operated underwater
vehicles for important deep-sea expeditions that have
yielded new information about living marine
resources. Much remains to be discovered about
these unique, isolated environments and their
geological, ecological, and biological resources.
WHEREAS, the waters and submerged lands in
and around the deep-sea canyons Oceanographer,
Lydonia, and Gilbert, and the seamounts Bear,
Physalia, Retriever, and Mytilus, contain objects of
scientific and historic interest that are situated upon
lands owned or controlled by the Federal
Government;
WHEREAS, section 320301 of title 54, United
States Code (the “Antiquities Act”), authorizes the
President, in his discretion, to declare by public
proclamation historic landmarks, historic and
prehistoric structures, and other objects of historic or
scientific interest that are situated upon the lands
owned or controlled by the Federal Government to be

Appendix D-58
national monuments, and to reserve as a part thereof
parcels of land, the limits of which shall be confined
to the smallest area compatible with the proper care
and management of the objects to be protected;
WHEREAS, it is in the public interest to preserve
the marine environment, including the waters and
submerged lands, in the area to be known as the
Northeast Canyons and Seamounts Marine National
Monument, for the care and management of the
objects of historic and scientific interest therein;
WHEREAS, the well-being of the United States,
the prosperity of its citizens and the protection of the
ocean environment are complementary and
reinforcing priorities; and the United States
continues to act with due regard for the rights,
freedoms, and lawful uses of the sea enjoyed by other
nations under the law of the sea in managing the
canyon and seamount area and does not compromise
the readiness, training, and global mobility of the
U.S. Armed Forces when establishing marine
protected areas;
NOW, THEREFORE, I, BARACK OBAMA,
President of the United States of America, by the
authority vested in me by section 320301 of title 54,
United States Code, hereby proclaim the objects
identified above that are situated upon lands and
interests in lands owned or controlled by the Federal
Government to be the Northeast Canyons and
Seamounts Marine National Monument (monument)
and, for the purpose of protecting those objects,
reserve as a part thereof all lands and interests in
lands owned or controlled by the Federal
Government within the boundaries described on the

Appendix D-59
accompanying map entitled “Northeast Canyons and
Seamounts Marine National Monument,” which is
attached hereto, and forms a part of this
proclamation. The Federal lands and interests in
lands reserved consist of approximately 4,913 square
miles, which is the smallest area compatible with the
proper care and management of the objects to be
protected.
The establishment of the monument is subject to
valid existing rights. All Federal lands and interests
in lands within the boundaries of the monument are
hereby appropriated and withdrawn from all forms of
entry, location, selection, sale, leasing, or other
disposition under the public land laws to the extent
that those laws apply, including but not limited to,
withdrawal from location, entry and patent under
mining laws, and from disposition under all laws
relating to development of oil and gas, minerals,
geothermal, or renewable energy. Lands and interest
in lands within the monument not owned or
controlled by the United States shall be reserved as
part of the monument upon acquisition of title or
control by the United States.
Management of the Marine National Monument
The Secretaries of Commerce and the Interior
(Secretaries) shall share management responsibility
for the monument. The Secretary of Commerce,
through the National Oceanic and Atmospheric
Administration (NOAA), and in consultation with the
Secretary of the Interior, shall have responsibility for
management of activities and species within the
monument under the Magnuson-Stevens Fishery
Conservation and Management Act, the Endangered

Appendix D-60
Species Act (for species regulated by NOAA), the
Marine Mammal Protection Act, and any other
applicable
Department
of
Commerce
legal
authorities. The Secretary of the Interior, through
the United States Fish and Wildlife Service (FWS),
and in consultation with the Secretary of Commerce,
shall have responsibility for management of
activities and species within the monument under its
applicable legal authorities, including the National
Wildlife Refuge System Administration Act, the
Refuge Recreation Act, and the Endangered Species
Act (for species regulated by FWS), and Public Law
98-532 and Executive Order 6166 of June 10, 1933.
The Secretaries shall prepare a joint
management
plan,
within
their
respective
authorities, for the monument within 3 years of the
date of this proclamation, and shall promulgate as
appropriate implementing regulations, within their
respective authorities, that address any further
specific actions necessary for the proper care and
management of the objects and area identified in this
proclamation. The Secretaries shall revise and
update the management plan as necessary. In
developing and implementing any management
plans and any management rules and regulations,
the Secretaries shall consult, designate, and involve
as cooperating agencies the agencies with
jurisdiction or special expertise, including the
Department of Defense and Department of State, in
accordance with the National Environmental Policy
Act (42 U.S.C. 4321 et seq.) and its implementing
regulations. In addition, the Secretaries shall work
to continue advances in resource protection in the
Monument area that have resulted from a strong

Appendix D-61
culture of collaboration and enhanced stewardship of
marine resources.
This proclamation shall be applied in accordance
with international law, and the Secretaries shall
coordinate with the Department of State to that end.
The management plans and their implementing
regulations shall not unlawfully restrict navigation
and overflight and other internationally recognized
lawful uses of the sea in the monument and shall
incorporate the provisions of this proclamation
regarding U.S. Armed Forces actions and compliance
with international law. No restrictions shall apply to
or be enforced against a person who is not a citizen,
national, or resident alien of the United States
(including foreign flag vessels) unless in accordance
with international law. Also, in accordance with
international law, no restrictions shall apply to
foreign warships, naval auxiliaries, and other vessels
owned or operated by a state and used, for the time
being, only on government non-commercial service,
in order to fully respect the sovereign immunity of
such vessels under international law.
Restrictions
Prohibited Activities
The Secretaries shall prohibit, to the extent
consistent with international law, any person from
conducting or causing to be conducted the following
activities:
1. Exploring for, developing, or producing oil and
gas or minerals, or undertaking any other energy

Appendix D-62
exploration or development activities within the
monument.
2. Using or attempting to use poisons, electrical
charges, or explosives in the collection or harvest of a
monument resource.
3. Introducing or otherwise releasing an
introduced species from within or into the
monument.
4. Removing, moving, taking, harvesting,
possessing, injuring, disturbing, or damaging, or
attempting to remove, move, take, harvest, possess,
injure, disturb, or damage, any living or nonliving
monument resource, except as provided under
regulated activities below.
5. Drilling into, anchoring, dredging, or
otherwise altering the submerged lands; or
constructing, placing, or abandoning any structure,
material, or other matter on the submerged lands,
except for scientific instruments and constructing or
maintaining submarine cables.
6. Fishing
commercially
or
possessing
commercial fishing gear except when stowed and not
available for immediate use during passage without
interruption through the monument, except for the
red crab fishery and the American lobster fishery as
regulated below.
Regulated Activities
Subject to such terms and conditions as the
Secretaries deem appropriate, the Secretaries,

Appendix D-63
pursuant to their respective authorities, to the extent
consistent with international law, may permit any of
the following activities regulated by this
proclamation if such activity is consistent with the
care and management of the objects within the
monument and is not prohibited as specified above:
1. Research and scientific exploration designed to
further understanding of monument resources and
qualities or knowledge of the North Atlantic Ocean
ecosystem and resources.
2. Activities that will further the educational
value of the monument or will assist in the
conservation and management of the monument.
3. Anchoring scientific instruments.
4. Recreational fishing in accordance with
applicable fishery management plans and other
applicable laws and other requirements.
5. Commercial fishing for red crab and American
lobster for a period of not more than 7 years from the
date of this proclamation, in accordance with
applicable fishery management plans and other
regulations, and under permits in effect on the date
of this proclamation. After 7 years, red crab and
American lobster commercial fishing is prohibited in
the monument.
6. Other activities that do not impact monument
resources, such as sailing or bird and marine
mammal watching so long as those activities are
conducted in accordance with applicable laws and
regulations, including the Marine Mammal

Appendix D-64
Protection Act. Nothing in this proclamation is
intended to require that the Secretaries issue
individual permits in order to allow such activities.
7. Construction and maintenance of submarine
cables.
Regulation of Scientific Exploration and Research
The prohibitions required by this proclamation
shall not restrict scientific exploration or research
activities by or for the Secretaries, and nothing in
this proclamation shall be construed to require a
permit or other authorization from the other
Secretary for their respective scientific activities.
Emergencies and Law Enforcement Activities
The prohibitions required by this proclamation
shall not apply to activities necessary to respond to
emergencies threatening life, property, or the
environment, or to activities necessary for law
enforcement purposes.
U.S. Armed Forces
1. The prohibitions required by this proclamation
shall not apply to activities and exercises of the U.S.
Armed Forces, including those carried out by the
United States Coast Guard.
2. The U.S. Armed Forces shall ensure, by the
adoption of appropriate measures not impairing
operations or operation capabilities, that its vessels
and aircraft act in a manner consistent so far as is
practicable, with this proclamation.

Appendix D-65
3. In the event of threatened or actual
destruction of, loss of, or injury to a monument
resource or quality resulting from an incident,
including but not limited to spills and groundings,
caused by a component of the Department of Defense
or the United States Coast Guard, the cognizant
component shall promptly coordinate with the
Secretaries for the purpose of taking appropriate
action to respond to and mitigate any harm and, if
possible, restore or replace the monument resource
or quality.
4. Nothing in this proclamation or any regulation
implementing it shall limit or otherwise affect the
U.S. Armed Forces’ discretion to use, maintain,
improve, manage or control any property under the
administrative control of a Military Department or
otherwise limit the availability of such property for
military mission purposes, including, but not limited
to, defensive areas and airspace reservations.
Other Provisions
Nothing in this proclamation shall be deemed to
revoke any existing withdrawal, reservation, or
appropriation; however, the monument shall be the
dominant reservation.
Warning is hereby given to all unauthorized
persons not to appropriate, excavate, injure, destroy,
or remove any feature of this monument and not to
locate or settle upon any lands thereof.
IN WITNESS WHEREOF, I have hereunto set
my hand this fifteenth day of September, in the year
of our Lord two thousand sixteen, and of the

Appendix D-66
Independence of the United States of America the
two hundred and forty-first.
BARACK OBAMA

